<html>
<title> - OVERSIGHT OF THE DEPARTMENT OF HOMELAND SECURITY'S OFFICE OF INSPECTOR GENERAL</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  OVERSIGHT OF THE DEPARTMENT OF HOMELAND 
                    SECURITY'S OFFICE OF INSPECTOR GENERAL

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 21, 2021

                               __________

                            Serial No. 117-7

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-634 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Chris Currie, Director, Homeland Security and Justice Team, 
  Government Accountability Office:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Joseph V. Cuffari, Inspector General, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article by Government Executive................................    36
  Biographical Sketch of Ms. Pauline Nadege Binam................    37

                                Appendix

Questions From Ranking Member John Katko for Joseph V. Cuffari...    61

 
OVERSIGHT OF THE DEPARTMENT OF HOMELAND SECURITY'S OFFICE OF INSPECTOR 
                                GENERAL

                              ----------                              


                       Wednesday, April 21, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., via 
Webex, Hon. Bennie G. Thompson [Chairman of the committee] 
presiding.
    Present: Representatives Thompson, Jackson Lee, Payne, 
Correa, Clarke, Swalwell, Titus, Demings, Barragan, Gottheimer, 
Malinowski, Torres, Katko, Higgins, Guest, Bishop, Van Drew, 
Miller-Meeks, Harshbarger, Gimenez, LaTurner, Meijer, Cammack, 
Pfluger, and Garbarino.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
oversight of the Department of Homeland Security's Office of 
Inspector General. Without objection, the Chair is authorized 
to declare the committee in recess at any point.
    The Committee on Homeland Security is meeting today to 
conduct oversight of the Department of Homeland Security's 
Office of Inspector General. Established as part of DHS in 
2002, the inspector general's mission is to provide independent 
oversight and promote excellence, integrity, and accountability 
within the Department. Unfortunately, the OIG has faced 
challenges for some time.
    The Government Accountability Office audited the OIG in 
2014 and found it needed to field key senior positions, address 
concerns about integrity and independence, develop a process to 
protect the identity of those making complaints, and improve 
coordination and information sharing for law enforcement 
authority.
    In 2017 and 2018 the OIG removed from its website 13 
reports that inaccurately painted the Federal Emergency 
Management Agency's disaster response efforts in a favorable 
light. I said at that time that OIG must fully restore 
confidence in its work and the committee will be monitoring its 
progress. Unfortunately, the hope for progress has not been 
realized.
    In 2019 Inspector General Cuffari was confirmed. Since then 
the committee has received several complaints from OIG 
employees about management of the office. Specifically, 
employees have alleged that failure to develop, implement, and 
adhere to management policies has resulted in decisions that 
are arbitrary, show favoritism or bias, hurt morale, and 
negatively affect operations.
    In response to these allegations and continued concerns 
about the performance of the office, in December 2019 
bipartisan leadership of this committee and the Senate Homeland 
Security and Government Affairs Committee asked GAO to review 
DOS's OIG management and operation. After a comprehensive 
audit, GAO issued a draft report last week to the OIG and the 
committee on its preliminary findings and made 21 
recommendations. GAO concluded that the OIG has not adhered to 
a number of professional standards and key practices for 
effective management. For example, GAO found that the OIG has 
been operating without a strategic plan. Absent such a plan, 
DHS OIG staff may not understand oversight priorities and goals 
which can negatively affect operations and performance. GAO 
also found that the OIG did not adhere to professional 
standards for conducting audits, inspections, and evaluations.
    The committee previously raised concerns about the quality 
of the OIG reports, notably those issues regarding the death of 
children in Customs and Border Protection custody. The report 
did not reflect thorough and accurate reviews of the relevant 
facts and failed to address critical questions about CBP's 
ability to care for children in custody.
    Moreover, GAO confirmed what the committee had observed 
regarding the OIG's average time to issue reports, stating that 
the OIG's review time lines for work were protracted and some 
work products remain unapproved for months. For instance, in 
the Office of Audits, for fiscal year 2017 only 8 of 102 
projects took more than 18 months to complete. Later, in fiscal 
year 2020, over half of the projects took more than 18 months 
to complete. More troubling, GAO noted the OIG had not taken 
steps to understand the delays or determine how to address 
them. Congress and the public depend on the OIG to help detect 
and prevent fraud, waste, abuse, and mismanagement of DHS 
programs, operations, and spending. A report that takes years 
to release allows problems to persist unchecked.
    Overall GAO noted that while the OIG has taken steps to 
address some of the problems identified in the report, its 
efforts are incomplete or have only recently been initiated. 
GAO's draft report makes clear that OIG must transform its 
management and operation. Just yesterday, the Washington Post 
and Project on Government Oversight published reports that call 
into question Inspector General Cuffari's handling of 
politically sensitive topics. In particular, the report alleged 
inspector general blocked investigation proposed by a career 
OIG staff into the previous administration's tear-gassing of 
protestors in Lafayette Square and the spread of Coronavirus 
among Secret Service personnel. Inspectors general must not shy 
away from the politically sensitive topics or allow political 
considerations to affect their work.
    The committee will be following up on these very troubling 
allegations. The committee expects the OIG to fulfill its 
mission with independence, integrity, transparency, and 
accountability.
    I look forward to hearing from Director Currie on GAO's 
finding and Inspector General Cuffari about his plans to 
implement GAO's recommendations and reestablish confidence in 
the Office of Inspector General.
    Be assured that the committee will be watching the OIG's 
response to GAO's report closely in the days ahead.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 21, 2021
    The Committee on Homeland Security is meeting today to conduct 
oversight of the Department of Homeland Security's Office of Inspector 
General (OIG). Established as part of DHS in 2002, the inspector 
general's mission is to provide independent oversight and promote 
excellence, integrity, and accountability within the Department. 
Unfortunately, the OIG has faced challenges for some time.
    The Government Accountability Office (GAO) audited the OIG in 2014 
and found it needed to: Fill key senior positions, address concerns 
about integrity and independence, develop a process to protect the 
identities of those making complaints and improve coordination and 
information sharing with law enforcement authorities.
    In 2017 and 2018, the OIG removed from its website 13 reports that 
inaccurately painted the Federal Emergency Management Agency's disaster 
response efforts in a favorable light. I said at the time that the OIG 
must fully restore confidence in its work and the committee would be 
monitoring its progress. Unfortunately, the hoped-for progress has not 
been realized. In 2019, Inspector General Cuffari was confirmed. Since 
then, the committee has received several complaints from OIG employees 
about management of the office.
    Specifically, employees have alleged that failure to develop, 
implement, and adhere to management policies has resulted in decisions 
that are arbitrary, show favoritism or bias, hurt morale, and 
negatively affect operations. In response to these allegations and 
continued concerns about the performance of the office, in December 
2019 bipartisan leadership of this committee and the Senate Homeland 
Security and Governmental Affairs Committee asked GAO to review DHS 
OIG's management and operations.
    After a comprehensive audit, GAO issued a draft report last week to 
the OIG and the committees on its preliminary findings and made 21 
recommendations. GAO concluded that the OIG has not adhered to a number 
of professional standards and key practices for effective management. 
For example, GAO found that the OIG has been operating without a 
strategic plan. Absent such a plan, DHS OIG staff may not understand 
oversight priorities and goals, which can negatively affect operations 
and performance.
    GAO also found that the OIG did not adhere to professional 
standards for conducting audits, inspections, and evaluations. The 
committee previously raised concerns about the quality of the OIG's 
reports, notably those issued regarding the deaths of children in 
Customs and Border Protection custody. The reports did not reflect 
thorough and accurate reviews of the relevant facts and failed to 
address critical questions about CBP's ability to care for children in 
custody.
    Moreover, GAO confirmed what the committee has observed regarding 
the OIG's average time to issue reports, stating that the OIG's 
``review time lines for work were protracted and some work products 
remained unapproved for months.'' For instance, in the Office of 
Audits, for fiscal year 2017, only 8 of 102 projects took more than 18 
months to complete. Later, in fiscal year 2020, over half of projects 
took more than 18 months to complete.
    More troubling, GAO noted the OIG had not taken steps to understand 
the delays or determine how to address them. Congress and the public 
depend on the OIG to help detect and prevent fraud, waste, abuse, and 
mismanagement of DHS programs, operations, and spending. A report that 
takes years to release allows problems to persist unchecked. Overall, 
GAO noted that while the OIG has taken steps to address some of the 
problems identified in the report, its efforts are incomplete or have 
only recently been initiated. GAO's draft report makes clear the OIG 
must transform its management and operations.
    Just yesterday, the Washington Post and Project on Government 
Oversight published reports that call into question Inspector General 
Cuffari's handling of politically sensitive topics. In particular, the 
reports allege the inspector general blocked investigations proposed by 
career OIG staff into the previous administration's tear-gassing of 
protestors in Lafayette Square and the spread of coronavirus among 
Secret Service personnel. Inspectors general must not shy away from 
politically sensitive topics or allow political considerations to 
affect their work. The committee will be following up on these very 
troubling allegations.
    The committee expects the OIG to fulfill its mission with 
independence, integrity, transparency, and accountability. I look 
forward to hearing today from Director Currie on GAO's findings and 
Inspector General Cuffari about his plans to implement GAO's 
recommendations and reestablish confidence in the Office of Inspector 
General. Be assured that the committee will be watching the OIG's 
response to GAO's report closely in the days ahead.

    Chairman Thompson. The Chair now recognizes the Ranking 
Member of the full committee, the gentleman from New York, Mr. 
Katko, for an opening statement.
    Mr. Katko. Thank you, Mr. Chairman. It is good to see you 
and thank you for holding this very important hearing today.
    I also want to thank the witnesses, Dr. Cuffari, the DHS 
inspector general, and Chris Currie, a director in the Homeland 
Security and Justice Team for the Government Accountability 
Office. Thank you for both for being here, gentlemen.
    Mr. Chairman, as you and I know, the most important mission 
of this committee is to help protect the homeland. It is that 
simple. That job has never been more critical or complex as it 
is today. With highly sophisticated adversaries only getting 
smarter, older, and stronger, we must not only account for the 
threats of today, but also the emerging risks of tomorrow. You 
and I spend much of our lives working to protect our Nation and 
hold responsible those who seek to threaten it or cause it 
harm.
    One important aspect of that is ensuring a strong 
Department of Homeland Security by giving the men and women of 
the Department all the tools and resources they need to do 
their job with integrity and respect. An important element of 
Homeland Security, and of other Federal agencies, is the Office 
of Inspector General, or OIG for short. Originally created 
through the Inspector General Act of 1978, the Act created 
inspector general positions and offices in more than a dozen 
specific departments and agencies.
    The DHS OIG was stood up by the Department after the tragic 
events of 9/11. The act gave these inspectors general the 
authority to review the internal documents of their departments 
or offices, investigate fraud, give policy advice, handle 
certain complaints by employees, and to report to the heads of 
their agencies and to the Congress on their activities.
    Although we wish there was not waste, fraud, or abuse 
within Homeland Security or any Federal agency, the reality is 
we all know it exists. It is the mission of the IG's office to 
help the rest of the Department identify and address waste, 
fraud, and abuse as much as possible.
    As a former Federal prosecutor, I am fully supportive of 
the role that the inspector general plays throughout the 
Federal Government. They are vital to ensuring accountability 
and transparency into each department and agency's activities. 
This is especially important in a department like the 
Department of Homeland Security with a mission so paramount and 
so important. DHS is tasked with safeguarding the American 
People, our homeland, and our values against enemies, foreign 
and domestic.
    To do this on a daily basis, we must ensure that the men 
and women of the Department are able to carry out their 
mission, and the IG's office helps ensure that it is done with 
integrity and honor.
    As both our witnesses and the Chairman know well, in 2019 
this committee, along with others, requested that the GAO 
conduct key oversight of the Department of Homeland Security's 
OIG's management and operations. GAO has now completed this 
exhaustive review, which spanned from 2015 to 2020, and has led 
to this hearing today. GAO evaluated the OIG's management 
operations against audit quality standards, the Federal 
standards for internal control, and leading practices for human 
capital management and organizational challenge. I have to say, 
after reading many GAO reports over the years, this one is very 
disturbing. I don't think that I have ever seen a GAO report 
that pinpoints so many weaknesses within an agency or 
department.
    GAO made 21 specific recommendations in total. They found 
weaknesses in multiple areas within OIG that included 
organizational performance, quality assurance, reporting 
timeliness and coordination with the DHS components of the OIG 
audits. These are all things that Chairman Thompson highlighted 
in his opening statement.
    The line that stuck out to me most was, ``Without 
addressing these and other long-standing management weaknesses, 
the DHS OIG is not well-positioned to fulfill its oversight 
mission.'' This is very concerning and certainly warrants 
further scrutiny.
    Dr. Cuffari, I know that you inherited some of these 
problems and have made some changes, but this is a very serious 
problem and one that we must address immediately for the 
reasons I have stated.
    Without a fully functioning OIG the Department will never 
live up to its full potential, nor would have the full trust of 
the American people, something it needs to succeed and 
something it absolutely cannot afford to lose.
    Reports like this also impact employee morale. The men and 
women of DHS need to have confidence in their leadership, 
including the IG. I am willing, and want to hear you out on, 
these findings and look forward to your testimony. I want to 
hear what you have done, what you are doing, and your vision 
for the future. This matter is very important to the committee, 
there is no question about it. I want you to take this report 
and its recommendations very seriously and know that while I 
commit to working with you, I plan to make this one of our 
oversight priorities in Congress.
    Mr. Chairman, I want to thank you again for holding this 
hearing. Thank you also, Mr. Currie, and his team at GAO, for 
conducting this important investigation.
    Without self-examination once in a while in Government, we 
are never going to be able to make the Government work better. 
We have to understand how important this hearing is and how 
important that we have faith in the IG going forward.
    So, Dr. Cuffari, it is up to you to convince us that you 
have that vision going forward that is going to allow us to 
keep the faith in the homeland security in particular, but also 
in the OIG office.
    With that, I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Thank you for holding this important hearing, today, Mr. Chairman, 
and thank you to our witnesses: Dr. Cuffari, the DHS inspector general, 
and Chris Currie, a director in the Homeland Security and Justice Team 
from GAO.
    Mr. Chairman, as you and I know, the most important mission of this 
committee is to help protect the homeland. That job has never been more 
critical or complex as it is today. With highly sophisticated 
adversaries only getting smarter, bolder, and stronger, we must not 
only account for the threats of today but also the emerging risks of 
tomorrow.
    You and I have spent much of our lives working to protect our 
Nation and hold responsible those who seek to threaten it or cause 
harm. One important aspect of that is ensuring a strong Department of 
Homeland Security by giving the men and women of the Department all the 
tools and resources they need to do their jobs with integrity and 
respect.
    An important element of DHS, and of other Federal agencies, is the 
Office of Inspector General, or OIG. Originally created through the 
Inspector General Act of 1978, the act created inspector general 
positions and offices in more than a dozen specific departments and 
agencies. The DHS OIG was stood up with the Department after 9/11. The 
act gave these inspectors general the authority to review the internal 
documents of their departments or offices, investigate fraud, give 
policy advice, handle certain complaints by employees, and to report to 
the heads of their agencies and to Congress on their activities.
    Although we all wish there was not waste, fraud, or abuse within 
DHS, the reality is we all know it exists. It is the mission of the 
IG's office to help the rest of the Department identify and address 
waste, fraud, and abuse as much as possible.
    As a former Federal prosecutor, I am fully supportive of the role 
that the IGs play throughout the Federal Government. They are vital to 
ensuring accountability and transparency into each department or 
agency's activities.
    This is especially important in a department like DHS with a 
mission so paramount. DHS is tasked with safeguarding the American 
people, our homeland, and our values, against enemies foreign and 
domestic. To do this on a daily basis, we must ensure that the men and 
women of the Department are able to carry out their mission, and the 
IG's office helps ensure that this is done with integrity and honor.
    As both our witnesses and the Chairman know well, in 2019 this 
committee, along with others, requested that the GAO conduct key 
oversight of the DHS OIG's management and operations.
    GAO has now completed this review, which spanned from 2015-2020, 
and has led to this hearing today.
    GAO evaluated the OIG's management and operations against audit 
quality standards, relevant Federal standards for internal control, and 
leading practices for human capital management and organizational 
change.
    I have to say, after reading many GAO reports over the years, this 
one is very disturbing. I don't think that I have ever seen a GAO 
report that pinpoints so many weaknesses within an agency or 
department. GAO made 21 recommendations in total.
    GAO found weaknesses in multiple areas within the OIG that 
included: Organizational Performance, Quality Assurance, Reporting 
Timeliness, and Coordination with the DHS components of the OIG audits.
    The line that stuck out to me the most was, ``Without addressing 
these and other long-standing management weaknesses, the DHS OIG is not 
well-positioned to fulfill its oversight mission.'' This is very 
concerning and certainly warrants further scrutiny.
    Dr. Cuffari, I know that you inherited some of these problems, and 
have made some changes, but this is a very serious problem, and one 
that we must address immediately for the reasons I've stated.
    Without a fully functioning OIG, the Department will never live up 
to its full potential, nor will it have the full trust of the American 
people--something it needs to succeed and something it absolutely 
cannot afford to lose.
    Reports like this also impact employee morale. The men and women of 
DHS need to have confidence in their leadership, including the IG.
    I am willing and want to hear you out on these findings and look 
forward to your testimony. I want to hear what you have done, what you 
are doing, and your vision for the future.
    This matter is very important to the committee. I want you to take 
this report and its recommendations very seriously and know that, while 
I commit to working with you, I plan to make this one of our oversight 
priorities this Congress.
    Mr. Chairman, thank you again for holding this hearing. Thank you, 
also, to Mr. Currie and his team at GAO for conducting this important 
investigation. I look forward to hearing from our witnesses.

    Chairman Thompson. Thank you. The gentleman yields back.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record.
    [The statement of Honorable Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             April 21, 2021
    Chairman Thompson, and Ranking Member Katko, thank you for 
convening this opportunity for the Homeland Security Committee to 
investigate ``Oversight of the Department of Homeland Security's Office 
of Inspector General.''
    I join my colleagues in welcoming today's witnesses:
  <bullet> Mr. Christopher P. Currie, director, Homeland Security and 
        Justice, U.S. Government Accountability Office (GAO), and
  <bullet> The Hon. Joseph V. Cuffari, inspector general (IG), U.S. 
        Department of Homeland Security (DHS).
    I look forward to today's hearing because of the important role 
that inspector generals fill throughout the Federal Government to guard 
our Nation and its people from waste, fraud, and abuse by Government 
agencies and contractors.
    The Department of Homeland Security (DHS) has a vital mission: To 
secure the Nation from the many threats we face.
    To secure the Nation requires the dedication of more than 240,000 
employees in jobs that range from aviation and border security to 
emergency response, which engages a range of professionals from 
cybersecurity analyst to chemical facility inspectors.
    DHS has a presence in the lives of the traveling public, those who 
fly commercially, or travel across the border, but the agency does much 
more.
    DHS provides immigration services to all those seeking to enter the 
country whether as students, visitors, or new citizens.
    DHS also protects our ports from threats and keeps commerce moving 
to markets within the United States and around the world.
    DHS responds to disasters, whether it is a hurricane, an 
earthquake, a flood, or a terrorist attack--when an emergency happens 
DHS is there, working side-by-side with local leaders and residents to 
help communities respond and recover.
    DHS is in charge of protecting the United States from cyber attacks 
on our important, computer-connected technologies and critical 
infrastructure.
    The most important thing that DHS does is stopping terrorists from 
attacking our people or this great Nation before an incident occurs.
    All of these jobs make DHS indispensable to our National security 
and for this reason it is important that the agency chief internal 
investigator be free of bias or favor when carrying out the duties of 
the IG's office.
    As a senior Member of this committee, and Chair of the Judiciary 
Committee's Subcommittee on Crime, Terrorism, and Homeland Security, I 
have learned a great deal about the capacity and strength of the men 
and women who work at the Department of Homeland Security.
    I hold them in the highest regard for their dedication and service 
to our country.
    This Nation depends on the men and women of the Department of 
Homeland Security (DHS) to protect citizens from those who wish to do 
them harm.
    Because of the dedication of DHS professionals, we are better 
prepared to face these challenges as one Nation united against a common 
foe.
    The Department of Homeland Security was not created to protect the 
Nation from desperate people escaping violence and poverty, seeking 
asylum in our country, or the ravages of a virus attacking and killing 
over half a million Americans.
    It was created to prevent attacks against our Nation such as the 
one carried out by foreign terrorists who used commercial planes as 
missiles to destroy the World Trade Center Towers, and a section of the 
west side of the Pentagon, and would have killed more if not for the 
heroic acts of the passengers on Flight 93 to stop the attackers from 
reaching their ultimate destination right here at our Nation's Capitol.
    In 2002, Congress established the DHS Office of Inspector General 
(OIG) to provide independent oversight and promote excellence, 
integrity, and accountability within DHS.
    The Council of the Inspectors General on Integrity and Efficiency 
(CIGIE) is an independent entity established within the Executive 
branch to address integrity, economy, and effectiveness issues that 
transcend individual Government agencies and aid in the establishment 
of a professional, well-trained, and highly-skilled workforce in the 
Offices of Inspectors General.
    CIGIE sets quality standards for inspectors general throughout the 
Federal Government.
    Those standards set forth qualities like objectivity, independence, 
and the obligation to be ``impartial, intellectually honest, and free 
of conflicts of interest.''
    CIGIE notes that ``without independence, both in fact and in 
appearance, objectivity is impaired.
    Unfortunately, the DHS OIG has suffered from several long-standing 
issues with appearance of objectivity and being free of conflict when 
carrying out the work of the office.
    Like many DHS agencies, employee morale at the OIG remains low.
    The DHS OIG has also seen management crises caused by the actions 
of IGs serving in that office.
    For example, a former acting DHS IG was removed for jeopardizing 
the independence of the office.
    Charles Edwards was removed from his interim post on the DHS 
Science and Technology staff following the release of a Senate report 
detailing his inappropriate socializing and sharing of draft documents 
with managers of the employees he was investigating.
    Edwards had been the subject of a year-long probe by a Senate 
Homeland Security and Governmental Affairs subcommittee.
    The subcommittee found that Mr. Edwards jeopardized the 
independence of the OIG and had an ``inadequate understanding of the 
importance of OIG independence'' which was reflected in his personal 
relationships with senior DHS officials.
    Mr. Edwards also did not recuse himself from audits and inspections 
that had a conflict of interest related to his wife's employment.
    Edwards was ultimately cleared of several allegations, such as 
abuse of Government resources in travel and charges of nepotism, the 
subcommittee found.
    Allegations that he destroyed records and favored certain employees 
and retaliated against others were not substantiated, said the Senate 
report, which was sent to the Council of the Inspectors General on 
Integrity and Efficiency.
    The larger issue in the Edward's case was the appearance that he 
was not independent of bias or favor toward others within DHS, which 
caused harm to the office of the OIG and impacted the morale of the 
office.
    Last year, the GAO was asked to look into the issue of the DHS OIG 
and its handling of matters regarding agency components in matters of 
public trust and accountability.
    On April 12, 2021, GAO issued a draft report to Congressional 
requesters discussing challenges and making 21 recommendations.
    The report will be released publicly in the coming weeks.
    The draft report identified the following challenges:
  <bullet> DHS OIG has operated for 4 of the past 6 years without a 
        strategic plan, which limits its ability to implement other 
        organizational performance management activities, such as 
        annual planning and performance assessment;
  <bullet> With an effective system of internal quality insurance, DHS 
        OIG has no way of knowing if its internal processes ensure that 
        its: (1) Work adheres to its policies and (2) meets established 
        standards of performance; and
  <bullet> The time it takes to complete projects has significantly 
        increased, and DHS OIG has not taken steps to understand the 
        causes of such increases or determine how to address them.
    GAO concludes that if the OIG fails to address these operational 
and management weaknesses, it will be ill-positioned to fulfill its 
oversight mission.
    Among the 21 recommendations, the GAO report recommends that the 
OIG must:
  <bullet> develop and implement an annual work planning process, as 
        part of a risk-based planning system;
  <bullet> develop and implement a process to allocate human capital 
        resources based on the organization's current and emerging 
        strategic objectives and priorities;
  <bullet> evaluate the structure of the organization and clearly 
        define the responsibilities of each division and program office 
        to ensure they are aligned with the OIG's strategic objectives 
        and priorities; and
  <bullet> develop and implement an organization-wide quality assurance 
        program.
    There are underlying concerns about the current OIG that are 
reminiscent of the issues raised regarding Edwards the previous IG who 
was removed from office.
    Committee staff investigation of JG Cuffari's past actions have 
raised serious concerns about whether his management of the OIG meets 
CIGIE's standards, including whether politics have influenced decisions 
on the OIG's work product, delayed access to high-level DHS officials 
for on-going investigations, and adopted policies that restrict reports 
produced to Congress or released publicly.
    For example, his handling of the on-going investigation of the 
``I'm 10-15'' Facebook group, which included current and former Border 
Patrol agents and personnel, appears to have been mishandled, prompting 
concerns about whether actions were motivated by political 
considerations.
    An email provided to committee by a whistleblower indicates that IG 
Cuffari was concerned about the demands an interview would impose on 
senior DHS leadership.
    In conflict with standard investigatory practices, IG Cuffari also 
suggested that inspectors avoid any questions already publicly 
commented on by those leaders.
    In one troubling example of what occurred in the OIG under Cuffari, 
according to the former director of the Whistleblower Protection Unit 
(WPU), Brian Volsky (who left in January 2021), an OIG employee 
disclosed the identity of a whistleblower to the commandant and vice 
commandant of the U.S. Coast Guard despite the fact that WPU staff 
conducted research concluding that the law did not permit disclosure of 
the whistleblower's identity to DHS.
    The IG's chief of staff concurred with this recommendation, but on 
the same day called the commandant and vice commandant to provide a 
``heads-up'' about the investigation.
    While the chief of staff did not specifically name the 
whistleblower, the vice commandant thanked her for providing enough 
information to identify who they were speaking about.
    Additionally, according to Mr. Volsky, the IG's chief of staff 
attempted to hide the existence of this phone call from him.
    One of the areas that is of interest to Members of this committee 
are the timely delivery of reports often mandated by Federal law.
    It has come to the attention of the committee through reports from 
current and former managers at the OIG who report that delays were 
caused by IG Cuffari and his chief of staff sitting on reports.
    IG Cuffari and his chief of staff told the Chairman that the delays 
were due to the poor quality of drafts requiring substantive edits.
    However, the committee has reviewed drafts of a select group of 
reports, including those on family separation and conditions at 
Immigration and Customs Enforcement facilities, and found minimal edits 
with no reasonable explanation for extensive delays.
    The GAO was not able to assess the reason for these delays at the 
front office because the OIG does not track this information.
    However, GAO auditors expressed incredulity with respect to the 
fact that senior managers received no explanation for why drafts 
reports sat with the front office for months at a time.
    These reports are troubling, and it is good that IG Cuffari is 
present to provide information to the committee.
    As Members of this committee many of us have seen first-hand the 
consequences of previous administration's asylum policy along the 
border and the Muslim ban.
    The Trump administration's policy of intentionally separating 
thousands of children from their parents at the U.S.-Mexico border--
resulted in conditions that, despite concentrated efforts by advocates 
and the Biden administration to reunite families, has resulted in 
hundreds remaining separated even today--provides an important case 
study of why accountability is necessary and how it may be achieved.
    The DHS IG report into this matter did not adequately address key 
questions that remain to be answered regarding individual and 
collective accountability for the deaths of 7 children while in U.S. 
custody.
    Further, the IG office should have adequately protected the 
whistleblower Dawn Wooten, a registered nurse who worked full-time at 
the Irwin County Detention Center until July 2020, after she outlined 
her allegations of unwanted and unnecessary medical procedures being 
performed on women at that facility that effected reproductive health 
with several women claiming that hysterectomies were performed.
    Ms. Wooten detailed her allegations in a complaint filed with DHS 
IG by a coalition of advocacy groups, but there are questions about 
retaliation against Ms. Wooten because of her role as a whistleblower.
    In another matter involving the Irwin County Detention Center a Ms. 
Pauline Nadege Binam who was born in Cameroon who has lived in the 
United States for 30 years since the age of 2 years was being held.
    Ms. Binam has a 12-year-old daughter.
    She has a mother, father, and 4 sisters, 2 are U.S. citizens and 2 
are DACA. She has no immediate relatives living in Cameroon.
    On July 12, 2019 she was ordered removed from the United States and 
her appeal was denied on January 21, 2020.
    Her attorney filed an emergency stay of removal with ICE on 
September 15, 2020.
    She has been in ICE custody for the past 3 years, since October 
2017 until now.
    While in the Irwin County Detention Center in Georgia, the 
individual was told she needed a D&C procedure, which removed tissue 
from inside the uterus.
    The need for the D&C procedure alone raises questions regarding the 
conditions of her detainment in the Irwin County Detention Center.
    However, during what should have been a D&C procedure, she was put 
under anesthesia, and the doctor performed a salpingectomy instead, 
which removed one of her fallopian tubes without the individual's 
knowledge or consent.
    Ms. Binam was never told why her fallopian tube was removed and was 
eventually transferred to the Montgomery Processing Center in Texas.
    The IG office was charged with investigating the details 
surrounding her treatment and the medical treatment provided to other 
women at that facility.
    On September 14, 2020, the nonprofit Project South, along with 3 
other nonprofits, Georgia Detention Watch, Georgia Latino Alliance for 
Human Rights, and South Georgia Immigrant Support Network, filed a 
complaint on behalf of detained immigrants at the Irwin County 
Detention Center and Nurse Wooten who worked at the facility.
    Despite this, ICE continued to carry through with Ms. Binam's 
deportation.
    Knowing this, I intervened on September 16, 2020, and disrupted her 
removal while in process from the United States.
    She has remained in the country while these and other matters 
regarding that facility are investigated.
    I look forward to the testimony of today's witnesses.
    Thank you.

    Chairman Thompson. Members are also reminded that the 
committee will operate according to the guidelines laid out by 
myself and the Ranking Member.
    I welcome our panel of witnesses. Our first witness is Mr. 
Christopher Currie, director of the U.S. Government 
Accountability Office, Homeland Security and Justice Team. Mr. 
Currie has worked at GAO for nearly 20 years. His portfolio 
consists of emergency management, DHS management, and emergency 
and disaster preparedness, response, and recovery issues.
    Our second witness is the Honorable Joseph B. Cuffari. He 
was confirmed as the Department of Homeland Security inspector 
general on July 25, 2019. Dr. Cuffari has previously served as 
a policy advisory for military and veteran affairs for the 
Governor or Arizona. He also served more than 40 years in the 
United States Air Force.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mr. Currie.

  STATEMENT OF CHRIS CURRIE, DIRECTOR, HOMELAND SECURITY AND 
         JUSTICE TEAM, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Thompson and Ranking Member 
Katko, for the opportunity to discuss our upcoming report on 
the DHS Office of Inspector General.
    Inspector generals have a very difficult job. They provide 
independent oversight of sensitive and controversial issues, 
they have to be firm, they have to be fair, and they also have 
to be balanced. The DHS OIG oversees the third-largest Federal 
department and some of the most fragmented, sensitive, and 
publicly-scrutinized issues in all of Government.
    As the country's National auditor, we at GAO work to ensure 
that IGs and audit agencies are as effective as possible. We 
are all in the business of keeping Government accountable and 
ensuring that taxpayer dollars are spent effectively.
    Our review has identified, as you mentioned, a wide range 
of challenges at the Office of Inspector General. To be clear, 
these challenges are long-standing and span multiple leaders 
and multiple administrations. As a result, blame rests with no 
one person, but on years of inconsistent and poor management, 
discipline, and practices, in our view.
    Today, I am going to provide some examples of these 
challenges, not to focus on the past, but just to be clear 
about what the root causes are and, more important, to identify 
what we think is needed to address them and transform this 
organization into what you and we all think it should be.
    Audit work is governed by very strict standards to ensure 
independence, quality, and timeliness. These standards are 
developed and accepted by the audit community because they work 
and because they help to avoid problems. Unfortunately, we 
found that the IG Office lacks many of these policies and 
procedures, which has led to concerns with the quality of their 
work and other challenges, such as demoralized staff and 
turnover.
    Specifically, we found that the office lacked a clear 
quality assurance program and process, which led to flaws in 
some of its work. For example, in 2018 a peer review led by the 
Council of Inspector Generals on Integrity and Efficiency gave 
the DHS IG a rating of pass with deficiencies. Just to be 
clear, in the auditing world, this is not the passing grade 
that you want. This means that the peer reviewers had concerns 
about the quality of the work and that some work did not meet 
auditing standards.
    We have also found problems related to timeliness, as you 
have mentioned in your opening statement. For example, projects 
taking 2 years or more to complete have increased since 2017. 
This leads to several specific problems. First, reports 
sometimes lack the most current information from the agency and 
policies once they are finally issued. This in turn makes the 
findings and recommendations less useful to DHS and you, the 
Congress.
    The challenges also affect the OIG's relationship and 
credibility with the Department in audits. To be straight, if 
an OIG is doing an effective job, there will always be some 
disagreement and friction. However, there is a level of 
credibility and trust between the auditor and the auditee by 
conducting work with integrity in accordance with standards. 
This relationship is critical to ensuring that the Department 
actually implements recommendations made to improve 
effectiveness and efficiency.
    The lack of policies and consistency also led to DHS and 
its components raising questions about report quality. For 
example, we found that DHS expressed concern about inaccurate 
information or facts in about 23 percent of reports the OIG 
issued in fiscal year 2020.
    These are just a few of the areas we identified where there 
were challenges. There are many more that we will talk about in 
the full report. We are planning numerous recommendations to 
address them.
    We are currently waiting for the IG's formal response to 
our recommendations and will issue that report very soon. 
However, I want to close with one very important and clear 
point, our recommendations are not just intended to be 
improvements around the margin. Collectively the OIG must treat 
these as a multi-year transformation effort in our view.
    The good news is the IG has hundreds of dedicated public 
servants who take pride in their oversight mission. We talked 
to many of these folks during our work. Involving and 
communicating with every single person in the organization will 
be key. This is not just my opinion, this is what we at GAO 
know after decades of looking at successful transformations 
across the Government.
    This completes my statement and I look forward to your 
questions.
    [The prepared statement of Mr. Currie follows:]
                   Prepared Statement of Chris Currie
                             April 21, 2021
                             gao highlights
    Highlights of GAO-21-452T, a testimony before the Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    DHS OIG has a critical role in providing independent and objective 
oversight of DHS, which encompasses multiple operational and support 
components. OIGs are expected to maintain high standards of 
professionalism and integrity in light of their mission, according to 
quality standards developed by the community of Federal inspectors 
general. However, DHS OIG has faced a number of challenges that have 
affected its ability to carry out its oversight mission effectively.
    This statement is based on GAO's draft report on DHS OIG's 
management and operations, which is currently at the agency for 
comment. It provides preliminary observations on DHS OIG's strategic 
planning processes; quality assurance processes; and reporting time 
frames for work from DHS OIG's offices of Audits and Special Reviews 
and Evaluations.
    To develop these preliminary observations, GAO reviewed relevant 
Federal laws and quality standards for Federal OIGs as well as DHS OIG 
documentation, including organizational policies; internal 
communications such as emails and memoranda; and DHS OIG's semiannual 
reports to Congress and published reports. GAO also analyzed DHS OIG 
project data from fiscal years 2015 through 2020, and interviewed DHS 
OIG leaders and other staff.
What GAO Recommends
    GAO will complete its review and make recommendations, as 
appropriate, in the final report.
  dhs office of inspector general.--preliminary observations on long-
             standing management and operational challenges
What GAO Found
    GAO's preliminary work has identified a number of management and 
operational challenges, including frequent leadership turnover, since 
fiscal year 2015 that have impeded the overall effectiveness of the 
Department of Homeland Security (DHS) Office of Inspector General 
(OIG). DHS OIG senior leaders have acknowledged that these challenges 
have contributed to organizational weaknesses, and have taken steps to 
begin addressing some of them. GAO's preliminary work has identified 
issues in the following areas, among others:
  <bullet> Strategic planning.--DHS OIG has not consistently developed 
        strategic plans, which are a necessary input for developing the 
        organization's other guiding documents and governance 
        framework. Specifically, DHS OIG has operated for 4 of the past 
        6 years without a strategic plan, and the plan it adopted for 
        fiscal years 2018-2019 included some, but not all, of the 
        elements considered standard for Federal entities. In 2020, DHS 
        OIG contracted with a nonprofit academy of Government experts 
        to develop a strategic plan for fiscal years 2021-2025, with 
        expected delivery in June 2021.
  <bullet> Quality assurance.--Internal and external reviews have 
        reported on concerns about quality assurance in some of DHS 
        OIG's work. In 2017 and 2018, after an internal review found 
        that some reports issued by DHS OIG may not have adhered to the 
        professional standards cited, DHS OIG retracted 13 audit 
        reports that had been issued over a 5-year period. In 2018, an 
        external review determined that DHS OIG needed to improve its 
        system of quality control. Though DHS OIG concurred with all of 
        the recommendations from that external review, it did not fully 
        implement them. In addition, DHS OIG has not established roles 
        and responsibilities for an organization-wide quality assurance 
        program. Moreover, GAO's preliminary work indicates that 
        current staff allocations may limit DHS OIG's quality assurance 
        reviews to focusing on audit work and not on the other types of 
        work it produces, including inspections, evaluations, special 
        reviews, and management alerts.
  <bullet> Timeliness.--DHS OIG project time frames for work from its 
        offices of Audits and Special Reviews and Evaluations have 
        increased over the 4 fiscal years GAO assessed. For example, in 
        fiscal year 2017, 79 of 102 Office of Audits projects were 
        completed in 1 year or less and 8 of 102 took more than 18 
        months. In fiscal year 2020, 7 of 67 reports were completed in 
        1 year or less and more than half (35 of 67) took more than 18 
        months. In addition, DHS OIG has not assessed time frames for 
        work completed by these offices, though timeliness in reporting 
        is a key element of effective oversight and DHS OIG staff 
        considered it an organizational weakness.
    GAO will complete its evaluation of these and other management and 
operational areas, and will issue a final report in the coming months.
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee: Thank you for the opportunity to discuss preliminary 
observations from our work on the management and operations of the 
Department of Homeland Security's (DHS) Office of Inspector General 
(OIG).
    DHS OIG has a critical role in strengthening accountability 
throughout DHS and a responsibility to provide independent and 
objective oversight of the Department and its 15 operational and 
support components, approximately 240,000 staff, and tens of billions 
of dollars in budgetary resources. However, in the past 6 years, DHS 
OIG has faced a number of challenges that have affected its ability to 
carry out its oversight mission effectively.
    In 2017 and 2018, DHS OIG retracted 13 audit reports issued between 
fiscal years 2013 and 2017 after an internal review found those reports 
may not have adhered to Government auditing standards.\1\ In 2018, peer 
reviewers, organized under the Council of the Inspectors General on 
Integrity and Efficiency (CIGIE), gave DHS OIG a ``pass with 
deficiency'' rating for its audit work, indicating that the peer review 
team concluded DHS OIG did not have reasonable assurance that its work 
conformed with applicable professional standards in one important 
respect.\2\ The rating was based on the peer reviewers' determination 
that DHS OIG's processes did not assure compliance with Government 
auditing standards.
---------------------------------------------------------------------------
    \1\ Government Auditing Standards provides a framework for 
conducting high-quality audits with competence, integrity, objectivity, 
and independence. GAO, Government Auditing Standards 2018 Revision, 
GAO-18-568G (Washington, DC: July 17, 2018).
    \2\ CIGIE's mission is to support the work of Federal inspectors 
general by, among other things, developing policies, standards, and 
approaches to aid inspectors general in their oversight work. CIGIE 
also administers a peer review program to support Federal OIGs in their 
compliance with professional standards and statutory requirements. For 
a given period under review, peer reviewers determine whether the audit 
organization's system of quality control was suitably designed and 
whether the audit organization is complying with that system. External 
peer reviews of an OIG must be performed by an audit entity of the 
Federal Government (for example, another OIG). Inspector General Act of 
1978, Pub. L. No. 95-452, 1A4(b)(2), 92 Stat. 1103, as amended.
---------------------------------------------------------------------------
    In addition, there have been allegations of improper conduct 
against DHS OIG senior leaders. For example, in the summer of 2020, the 
inspector general announced the termination of a member of the office's 
leadership team and that another member had been placed on 
administrative leave. DHS OIG hired a law firm to review the conduct of 
these 2 individuals, as well as a third former leader. The 
investigation concluded that 1 DHS OIG senior leader, with the 
assistance of the other 2 individuals, engaged in unprofessional 
conduct to the detriment of DHS OIG and its mission.\3\
---------------------------------------------------------------------------
    \3\ According to the report of investigation, the law firm reviewed 
88 allegations pertaining to these senior leaders and found evidence 
that 1 leader, with the assistance of the others, engaged in 
unprofessional conduct that elevated individual interests over those of 
the public. The investigation did not find evidence substantiating many 
of the other allegations, including that these individuals engaged in 
illegal conduct.
---------------------------------------------------------------------------
    DHS OIG has also experienced frequent leadership turnover in recent 
years. During fiscal years 2015 through 2020, DHS OIG had 4 confirmed 
or acting inspectors general. Several key leadership positions--
including the assistant inspector general for audits, assistant 
inspector general for investigations, assistant inspector general for 
special reviews and evaluations, and counsel--had similarly high 
turnover.\4\
---------------------------------------------------------------------------
    \4\ DHS OIG leadership created the Office of Special Reviews and 
Evaluations in 2018. It includes the former Office of Inspections and 
Evaluations. The Office of Inspections and Evaluations also had high 
leadership turnover.
---------------------------------------------------------------------------
    DHS OIG senior leaders have acknowledged that these challenges have 
contributed to organizational weaknesses, and have taken steps to begin 
addressing some of those weaknesses, as we describe later in this 
statement.
    My statement today is based on our draft report on DHS OIG's 
management and operations, which is currently at the agency for 
comment. Specifically, this statement provides preliminary observations 
on DHS OIG's:
    1. strategic planning processes;
    2. quality assurance processes; and
    3. reporting time frames for work from its offices of Audits and 
        Special Reviews and Evaluations.
    We focused on DHS OIG management and operations from fiscal year 
2015 through fiscal year 2020 and included more recent information on 
the status of on-going efforts. To develop our preliminary observations 
in all 3 areas, we reviewed relevant Federal laws about the management 
and operations of Federal OIGs, as well as applicable CIGIE quality 
standards.\5\ We also reviewed documentation about DHS OIG's 
organizational policies; internal communications such as emails and 
memoranda; and public documents, such as DHS OIG's semiannual reports 
to Congress and published reports.\6\ We interviewed DHS OIG senior 
leaders--members of the Senior Executive Service--as well as leaders of 
divisions or functions and other staff knowledgeable about the 
organization's operations, referred to us by senior leaders we 
interviewed.\7\ We also reviewed and analyzed DHS OIG internal 
assessments of strengths, weaknesses, opportunities, and threats 
conducted in fiscal year 2017 and fiscal year 2019.
---------------------------------------------------------------------------
    \5\ For the purposes of our draft report and this statement, the 
scope of our work on quality assurance processes and time frames 
includes work from the Offices of Audits and Special Reviews and 
Evaluations. We did not include work completed by the Office of 
Investigations because our methodology relied on reviewing publicly-
available reports--both for content related to professional standards 
and information to inform data reliability of time frames for 
completing work. Investigative reports are generally not made publicly 
available. Additionally, we could not evaluate the time frames for 
completing investigations because the scope and timing of most 
investigations are determined by the allegations of misconduct and, 
unlike other OIG work such as audits, are not planned or scoped in 
advance.
    \6\ The Inspector General Act of 1978 requires OIGs to report twice 
yearly to Congress about significant problems, abuses, and deficiencies 
relating to the administration of programs and operations at the agency 
for which it provides oversight; a description of the recommendations 
for corrective action made; and a summary of matters referred to 
prosecutive authorities and the prosecutions and convictions which have 
resulted, among other requirements. Inspector General Act of 1978, Pub. 
L. No. 95-452,  5(a), 92 Stat. 1103, as amended.
    \7\ We conducted our interviews between March 2020 and February 
2021 with officials who were employed by DHS OIG at the time we 
interviewed them.
---------------------------------------------------------------------------
    To describe the timeliness of work by the offices of Audits and 
Special Reviews and Evaluations, we analyzed project time frames for 
projects initiated after the beginning of fiscal year 2015 and 
completed by the end of fiscal year 2020 using data in DHS OIG's 
project tracking system.\8\ To assess the reliability of these data, we 
reviewed the information for obvious errors and interviewed 
knowledgeable agency officials about processes for collecting, 
maintaining, and checking the accuracy of these data. Based on the 
information we collected, we determined that the data were sufficiently 
reliable for us to report on the start and end dates for DHS OIG 
projects.
---------------------------------------------------------------------------
    \8\ We reviewed data for projects initiated after October 1, 2014 
and completed by September 30, 2020.
---------------------------------------------------------------------------
    We requested technical comments from DHS OIG on this statement, but 
none were provided.
    We are conducting the work upon which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               background
DHS OIG
    DHS OIG is led by an inspector general, who serves under the 
general supervision of the Secretary of Homeland Security. By statute, 
inspectors general have a dual and independent reporting relationship 
to the agency head and to the Congress.\9\ With about 700 employees on 
board as of September 2020, DHS OIG is structured as shown in figure 1.
---------------------------------------------------------------------------
    \9\ Inspector General Act of 1978, Pub. L. No. 95-452,  5(d), 92 
Stat. 1103, as amended.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    DHS OIG includes 3 offices whose primary mission is to directly 
conduct oversight of DHS components, programs, and activities.
  <bullet> Office of Audits.--Plans, conducts, and reports the results 
        of financial and performance audits, attestation engagements, 
        and inspections and evaluations across DHS and its components. 
        Provides services in support of program office work, including 
        system testing, data analytics, and statistical analysis.
  <bullet> Office of Special Reviews and Evaluations.--Plans, conducts, 
        and reports the results of inspections, evaluations, and 
        special reviews across DHS and its components.
  <bullet> Office of Investigations.--Investigates allegations of 
        criminal, civil, and administrative misconduct involving DHS 
        employees, contractors, grantees, and programs, which may 
        result in criminal prosecutions, fines, and personnel actions, 
        among other outcomes.
    DHS OIG also includes 5 offices that support oversight activities 
and management of the organization. They are: (1) Executive Office, (2) 
Office of Counsel,\10\ (3) Office of External Affairs, (4) Office of 
Management, and (5) Office of Integrity and Quality Oversight.\11\
---------------------------------------------------------------------------
    \10\ In addition to support activities, the Office of Counsel also 
investigates allegations of whistleblower retaliation.
    \11\ One of 4 divisions in the Office of Integrity and Quality 
Oversight conducts oversight reviews of DHS component internal affairs 
offices in addition to reviews of DHS OIG investigations offices. The 
other 3 divisions conduct oversight of DHS OIG, according to OIG 
documentation.
---------------------------------------------------------------------------
                cigie and federal oig quality standards
    Composed of 73 inspectors general, CIGIE is an independent entity 
within the Executive branch that was statutorily established by the 
Inspector General Reform Act of 2008.\12\ CIGIE's mission is to support 
the work of Federal inspectors general by, among other things, 
developing policies, standards, and approaches to aid inspectors 
general in their oversight work. CIGIE also facilitates the peer review 
process for OIGs' audit, investigation, and inspection and evaluation 
work.
---------------------------------------------------------------------------
    \12\ Pub. L. No. 110-409,  7(a), 122 Stat. 4305; 5a U.S.C.  11. 
All inspectors general whose offices are established under Section 2 or 
Section 8G of the Inspector General Act of 1978, including those that 
are Presidentially-appointed and Senate-confirmed and those that are 
appointed by agency heads (designated Federal entities), are members of 
CIGIE. 5a U.S.C.  11.
---------------------------------------------------------------------------
    The community of Federal inspectors general, organized through 
CIGIE, collectively formulated and adopted CIGIE quality standards for 
OIGs to guide the management, operations, and conduct of Federal OIGs. 
CIGIE quality standards for OIGs include professional standards for 
planning, establishing an efficient and effective organization, 
managing risk, maintaining quality assurance, and ensuring staff 
possess the requisite qualifications to produce quality work, among 
others.\13\
---------------------------------------------------------------------------
    \13\ CIGIE standards also incorporate by reference the professional 
standards for audit, investigation, and inspection and evaluation work, 
as well as Standards for Internal Control in the Federal Government.
---------------------------------------------------------------------------
    CIGIE quality standards for OIGs also state that OIGs are expected 
to maintain high standards of professionalism and integrity in light of 
their mission, as independent and objective units, to review agency 
activities. CIGIE developed and adopted these quality standards to 
guide the conduct of OIGs because of that expectation for the OIG 
community.
         dhs oig has not consistently developed strategic plans
    Our preliminary work indicates that DHS OIG did not have a 
strategic plan in fiscal years 2015, 2016, 2017, and 2020, and the plan 
it adopted for fiscal years 2018-2019 included some, but not all, of 
the elements considered standard in strategic plans for Federal 
entities.\14\ As of April 2021, DHS OIG has actions under way to 
develop a strategic plan for fiscal years 2021-2025.
---------------------------------------------------------------------------
    \14\ The Government Performance and Results Act of 1993 (GPRA), 
which was amended and expanded by the GPRA Modernization Act of 2010 
(GPRAMA) includes an organizational performance management framework 
that describes strategic plan content and publication time lines in 
relation to strategic planning standards. GPRAMA requirements to 
develop a strategic plan apply at the Departmental level (e.g., DHS), 
and do not explicitly apply to DHS OIG. However, we have previously 
stated that GPRAMA requirements can serve as leading practices at lower 
organizational levels within Federal agencies, such as individual 
divisions, programs, or initiatives, which would include an OIG. For 
example, see Chemical Assessments: Annual EPA Survey Inconsistent with 
Leading Practices in Program Management, GAO-21-156, (Washington, DC: 
Dec. 18, 2020).
---------------------------------------------------------------------------
    The strategic plan for fiscal years 2018-2019 articulated DHS OIG's 
mission, strategic goals, and the associated objectives, but did not 
include the strategies to achieve those goals or a description of the 
organizational risks that might affect achievement. According to DHS 
OIG officials we interviewed, the strategic plan for fiscal years 2018-
2019 was intended to guide the organization in the short-term while DHS 
OIG staff built the capability to develop a 3- to 5-year strategic plan 
that is more common.\15\
---------------------------------------------------------------------------
    \15\ OMB Circular A-11 Preparation, Submission, Execution of the 
Budget, which provides guidance on implementing GPRAMA, directs 
agencies to establish strategic goals and objectives in their strategic 
plans for a period of not less than 4 years forward from the fiscal 
year in which it is published (Section 230.4 of Circular A-11).
---------------------------------------------------------------------------
    In addition, the strategic plan for fiscal years 2018-2019 did not 
articulate performance goals, though DHS OIG later developed 
performance output targets that were documented elsewhere. 
Specifically, the strategic plan for fiscal years 2018-2019 did not 
include specific, quantifiable, and measurable targets that were 
aligned to the overall strategy and against which DHS OIG could measure 
progress and identify areas for improvement.\16\ The plan included a 
section for organization-level performance indicators. However, the 
items listed described expected improvements and not measurable 
outcomes linked to a performance goal and strategic objective, as 
indicators in this context are generally defined.\17\ For example, DHS 
OIG's performance indicators included: (1) Products that identify more 
efficient and effective ways for DHS to carry out its mission and (2) 
employee feedback tool that improves operations and enhances employee 
satisfaction. For 2019, DHS OIG developed quantitative output goals for 
the heads of some DHS OIG offices and aligned them to the strategic 
plan to supplement the descriptive outcomes. These output goals 
included goals for: (1) Reports published and (2) employee engagement 
improvements implemented.
---------------------------------------------------------------------------
    \16\ OMB Circular A-11 Preparation, Submission, Execution of the 
Budget describes the standard content of a strategic plan, which 
includes performance goals (Section 210.4 of Circular A-11), and 
defines such goals as a statement of the level of performance to be 
accomplished within a time frame, expressed as a tangible, measurable 
objective or as a quantitative standard, value, or rate (Section 200.14 
of Circular A-11).
    \17\ OMB Circular A-11 Preparation, Submission, Execution of the 
Budget defines performance indicators as the measurable values that are 
used to track progress toward a goal or target within a time frame 
(Section 200.15 of Circular A-11).
---------------------------------------------------------------------------
    In the spring of 2019, DHS OIG took some steps to prepare a 
successor strategic plan, but ultimately changed course following a 
leadership change. Specifically, DHS OIG staff initiated strategic 
planning activities and in the summer of 2019, staff drafted a short-
term strategic plan for fiscal years 2020-2022. Those staff recommended 
developing 4-year plans thereafter, starting in fiscal year 2023. 
However, the inspector general did not adopt the draft strategic plan 
for fiscal years 2020-2022 and instead initiated a process to contract 
with the National Academy for Public Administration to develop DHS 
OIG's next strategic plan.\18\
---------------------------------------------------------------------------
    \18\ The National Academy for Public Administration is a 
Congressionally-chartered, nonpartisan, nonprofit academy whose mission 
is to provide Government leaders with expert support in building and 
managing more effective, efficient, equitable, accountable, and 
transparent organizations.
---------------------------------------------------------------------------
    As of April 2021, DHS OIG has actions under way to develop a long-
term strategic plan, but will have operated for almost 2 years without 
a strategic plan when the new plan is delivered in June 2021. DHS OIG 
finalized a contract for strategic planning work in August 2020 and, 
based on the contract's terms, the contractor is expected to deliver a 
strategic plan to cover fiscal years 2021-2025 in June 2021. According 
to one DHS OIG senior leader, the inspector general sees value in the 
rigorous strategic planning process that the contractor is facilitating 
and in having a plan that is reflective of his priorities.
    We have previously reported that effective management of staff 
performance includes aligning individual performance to the 
organization's goals, which cannot be done if those goals have not been 
defined.\19\ A strategic plan is also a necessary input for developing 
the organization's other guiding documents and governance framework 
that collectively provide reasonable assurance that its objectives will 
be achieved.
---------------------------------------------------------------------------
    \19\ GAO, Results-Oriented Cultures: Creating a Clear Linkage 
between Individual Performance and Organizational Success, GAO-03-488 
(Washington, DC: March 14, 2003).
---------------------------------------------------------------------------
        dhs oig has not implemented a quality assurance program
Quality Assurance Program
    Our preliminary work indicates that DHS OIG has not established 
roles and responsibilities for an organization-wide quality assurance 
program, and particularly for internal quality assurance activities--
that is, the activities DHS OIG undertakes to ensure the objective, 
timely, and comprehensive appraisal of its operations.\20\ A quality 
assurance program aims to ensure DHS OIG's work: (1) Adheres to 
established policies and procedures; (2) meets established standards of 
performance, including applicable professional standards; and (3) is 
carried out economically, efficiently, and effectively.
---------------------------------------------------------------------------
    \20\ By contrast, external quality assurance refers to the reviews 
conducted by outside entities of an OIG's audits, investigations, 
inspections, evaluations, and other activities. The peer reviews 
organized under CIGIE are an example of an external quality assurance 
activity.
---------------------------------------------------------------------------
    DHS OIG leadership established the Office of Integrity and Quality 
Oversight as the organization's quality assurance office; however, its 
role has not been clearly defined. In 2013, DHS OIG created the Office 
of Integrity and Quality Oversight to enhance organizational 
independence and oversight of DHS OIG's operations. Officials from the 
Office of Integrity and Quality Oversight told us that it is their 
understanding that the office is to lead quality assurance efforts, 
including ensuring that the OIG's structure supports alignment with 
professional standards and that quality assurance elements, such as 
training, supervision, and risk assessment are in place. However, the 
scope of the office's responsibilities has not been formalized in a 
quality assurance program.
    Office of Integrity and Quality Oversight staff have taken steps to 
formally establish such an OIG-wide quality assurance program, however, 
senior leaders have not taken action to implement such a program. In 
the fall of 2019, staff in the Office of Integrity and Quality 
Oversight wrote a draft directive to establish policies and procedures 
for maintaining an overarching quality assurance program and shared 
that draft directive with DHS OIG leadership. However, DHS OIG senior 
leaders told us that they prioritized issues other than implementing a 
quality assurance program. As of April 2021, DHS OIG had not 
implemented that directive and there is no organization-wide quality 
assurance program in place.
    In addition, our preliminary work indicates that resource 
constraints in the Office of Integrity and Quality Oversight may affect 
the scope of DHS OIG's internal quality assurance efforts. As of 
September 2020, 4 staff were assigned to the division responsible for 
internal quality assurance reviews of DHS OIG's audit, inspection, and 
evaluation work. According to officials in the Office of Integrity and 
Quality Oversight, as a result of resource constraints, their quality 
assurance reviews have generally focused on audit work conducted under 
Government auditing standards and have not focused on other types of 
work, including inspections, evaluations, special reviews, and 
management alerts.
Quality Assurance for Audits
    Our preliminary work also indicates that internal and external 
reviews have reported on concerns about quality assurance in some of 
DHS OIG's audit work conducted under Government auditing standards. 
Although there are recent indications of improvement, including updated 
guidance for audit staff, officials told us that staff are still 
developing the skills necessary to produce high-quality audit work.
    For example, in 2018, peer reviewers organized under CIGIE gave DHS 
OIG a ``pass with deficiency'' rating for its audit work. In their 
report, the peer reviewers made 4 recommendations to DHS OIG: (1) 
Identify the root cause for departures from audit standards in certain 
work; (2) update its policies and procedures to address the 
deficiencies; (3) verify that changes in the system of quality control 
resolved the deficiencies; and (4) schedule an off-cycle peer review to 
verify that the changes provide reasonable assurance that its work is 
adhering to audit standards.
    DHS OIG concurred with all of the recommendations and considered 
them resolved, but we found that some were not fully implemented.\21\ 
For example, in response to the second and third recommendations, the 
Office of Audits updated its audit manual and established the Quality 
Management and Training Branch. The Quality Management and Training 
Branch was to provide additional quality oversight of audit work and 
perform in-process quality reviews of audit work to evaluate the 
effectiveness of the Office of Audits' corrective actions.\22\ However, 
officials in this branch told us that they stopped doing in-process 
quality reviews for approximately 10 months in fiscal year 2020 to 
focus on other priorities--including completion of the audit manual and 
related job aids. Eight in-process quality reviews were affected by 
this reprioritization, including 4 reviews that were under way as of 
October 2019 and were not completed until September 2020. As a result, 
in 2020, audit teams issued draft and final reports that did not 
incorporate the in-process quality reviewers' findings. As of January 
2021, Office of Audits officials told us that they continue to conduct 
in-process quality reviews and that such reviews are a priority for 
their office.
---------------------------------------------------------------------------
    \21\ According to DHS OIG's semiannual reports to Congress, DHS OIG 
closed all of the 2018 audit peer review's recommendations, as of 
September 2020. DHS OIG, Semiannual Report to the Congress: October 1, 
2019-March 31, 2020 (Washington, DC: 2020) and DHS OIG, Semiannual 
Report to the Congress: April 1, 2020-September 30, 2020 (Washington, 
DC: 2020).
    \22\ In-process quality reviews refers to an assessment of an on-
going project's documentation to determine whether the project team is 
conducting the project consistent with relevant professional standards 
and DHS OIG procedures prior to publication so the team could take 
corrective action, if needed.
---------------------------------------------------------------------------
     time frames for dhs oig's work have increased in recent years
    Our preliminary work indicates that the time DHS OIG Office of 
Audits and Office of Special Reviews and Evaluations teams take to 
complete their work--that is, from the time a team initiates a project 
until it publishes the final report--increased for reports completed 
between fiscal year 2017 and 2020.\23\ In addition, DHS OIG has not 
assessed time frames for completing such work, though report timeliness 
is a recognized problem for DHS OIG. For example, a 2019 internal 
report summarizing the results of interviews with DHS OIG staff from 
across the organization noted that staff considered report timeliness a 
weakness for the organization.
---------------------------------------------------------------------------
    \23\ We reviewed project tracking data for projects initiated after 
October 1, 2014 and completed by September 30, 2020. In order to 
compare time frames for completed reports across years, we identified 
the first year in which reports initiated after October 1, 2014 were 
completed. We determined that 2017 was the first such year. As a 
result, we report on time frames for reports initiated after October 1, 
2014 and completed in fiscal year 2017 through fiscal year 2020.
---------------------------------------------------------------------------
    Based on our preliminary work, the time it takes DHS OIG teams to 
complete reports has increased over the 4 fiscal years we assessed.\24\ 
DHS OIG's project tracking system captures certain project milestones, 
such as the start date of projects and date reports are issued, and 
acts as the office's system of record for reviewing and distributing 
reports and other work products. Our analysis of Office of Audits and 
Office of Special Reviews and Evaluations project time frames using 
data from this system found that time frames for individual projects 
vary. However, the proportion of projects taking 18 to 24 months and 
more than 24 months generally increased from fiscal year 2017 to 2020, 
as shown in figure 2.\25\
---------------------------------------------------------------------------
    \24\ For the purposes of this analysis, the Office of Audits 
includes time frames for reports completed by the Office of Audits, the 
former Office of Information Technology Audits, and the former Office 
of Emergency Management Oversight. The Office of Specials Reviews and 
Evaluations includes time frames for reports completed by the former 
Office of Inspections and Evaluations and the former Special Reviews 
Group.
    \25\ These time frames correspond to reports published in the 
stated fiscal year. Reports published in fiscal year 2020, for example, 
may have been initiated in fiscal year 2020 or in any prior fiscal 
year. Office of Audits officials told us that the longer time frames 
are because the Office of Audits now conducts performance audits of the 
Federal Emergency Management Agency, which take longer than the 
compliance audits of grant applicants that the office conducted in the 
past. As illustrated in figure 2, a small portion of Office of Audits 
reports took more than 18 months to complete in fiscal year 2017. In 
fiscal years 2019 and 2020, respectively, a significantly larger 
portion of Office of Audits reports took more than 18 months to 
complete, although fewer reports were completed in those years compared 
to 2017.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    As shown, 79 of 102 reports the Office of Audits completed in 
fiscal year 2017 (about 77 percent) took 1 year or less, and 8 of 102 
(about 8 percent) took more than 18 months. In fiscal year 2020, in 
contrast, 7 of 67 Office of Audits reports (about 10 percent) took 1 
year or less and 35 of 67 (about 52 percent) took more than 18 months. 
Time frames for Office of Special Reviews and Evaluations projects have 
increased similarly over time, although the office is smaller and 
completes far fewer projects each year. In fiscal years 2017 and 2018, 
the Office of Special Reviews and Evaluations issued 15 and 19 reports, 
respectively. In each year, one report took more than 18 months to 
complete. In fiscal year 2020, 5 of the 11 reports the office issued 
took more than 18 months.
    Our preliminary work also indicates that DHS OIG has not 
comprehensively evaluated timeliness at the organization or program 
office level to provide assurance that its work is timely. Program 
office leaders we spoke with told us that the reasons for increased 
project time frames varied because each project is different. However, 
according to these officials, neither DHS OIG nor program office 
leaders have systematically assessed the timeliness of the office's 
work. A project team within the Office of Audits developed and, as of 
February 2021, is piloting a project tracking dashboard to visually 
represent project statuses and milestones. This initiative is a 
positive step and, in the future, could be a way for DHS OIG to 
centrally monitor project time frames and better understand factors 
contributing to them.
    We will complete our review of these and other management and 
operational areas and make recommendations, as appropriate, in our 
final report, which will be published in the coming months.
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, this completes my prepared statement. I would be pleased to 
respond to any questions that you may have at this time.

    Chairman Thompson. Thank you for your testimony.
    I know recognize Inspector General Cuffari to summarize his 
statement for 5 minutes, but he is having some technical 
difficulties and he will be giving that testimony at this point 
on telephone until the problems are resolved.
    Dr. Cuffari.

    STATEMENT OF JOSEPH V. CUFFARI, INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Cuffari. Thank you, Chairman Thompson.
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, before I begin I offer you my condolences on the 
loss of your colleague, Representative Hastings. I understand 
many of you were attending his memorial earlier today.
    Thank you for the opportunity to testify about the 
Department of Homeland Security Office of Inspector General, 
our important mission, and my on-going efforts to make it a 
model workplace.
    Throughout my more than 40 years in public service I have 
worked hard to find process improvements, efficiencies, and 
better ways of doing business at every station. This includes 
considering feedback from important oversight agencies, such as 
the GAO. I am also very grateful for this committee's support. 
I have had the pleasure to meet personally with the Chairman, 
Ranking Member, and more than half of this committee Members to 
keep you apprised of our important work. With your support and 
confidence in our office we have made significant strides.
    Since this time last year we have had many accomplishments 
to be proud of. Most notably, we maintained our efficiency and 
momentum despite the pandemic. Our Fiscal Year 2020 Federal 
Employee Viewpoint Survey scores hit a 5-year high. We 
increased productivity and enhanced quality. We adopted a data-
driven, risk-based, decision-making model. We have more than 90 
on-going audits, inspections, and evaluations, including remote 
unannounced inspections of immigration detention facilities, 
and we recently passed 3 CIGIE peer reviews within the last 12 
months.
    We have left behind a tumultuous 5-year period in the IG's 
brief history and our ship is heading in the right direction. 
For the past 21 months I have worked diligently to build my 
senior leadership team and to identify, understand, and address 
the issues that have plagued our office. Since my confirmation 
I have met with more than 70 Members of Congress, and over the 
past several months I have also had very productive meetings 
with then-President-Elect Biden's DHS transition team and 
several one-on-one discussions with Secretary Mayorkas.
    I have also adopted initiatives to improve employee morale, 
including increased communication through weekly update 
messages, more than 60 small group meetings with my IG staff, I 
have had several town hall meetings, and I have increased 
flexibility by implementing a 100 percent telework policy and 
expanded schedule so all my employees can address challenges 
brought on by the pandemic.
    We appreciate the work that Mr. Currie and his team at GAO 
have done. We view GAO's recommendation as a tool to aid our 
office's continuing progress and we appreciate GAO's input and 
professionalism. Even prior to receiving GAO's draft report, my 
office was already in the process of implementing improvements. 
For example, we contracted with the Congressionally-chartered 
National Academy of Public Administration to create a 5-year 
strategic plan which will anchor our planning efforts. We have 
also expanded an option on our NAPA contract to help us 
implement many of GAO's recommendations.
    I have made several recent organizational adjustments, 
creating 2 new offices, the Office of Integrity and the Office 
of Innovation. This change better aligns DHS IG's 
organizational structure with our larger peer agencies, such as 
the DOD IG and Health and Human Services IG. We follow GAO 
model practices to implement these changes, which will improve 
our quality assurance.
    I present the committee with these final thoughts. The 
issues within DHS IG that GAO identified in its draft report 
did not manifest overnight. Therefore, it would be presumptuous 
to suggest that these issues could be fixed overnight. But I am 
so wholly committed to the staff of the DHS IG, this committee, 
Congress, and the American people, that I will spare no effort 
to build a stronger and better organization. Our improvements 
over the last 21 months show we are headed in the right 
direction and I have every confidence in our future success.
    This concludes my testimony, Mr. Chairman, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Cuffari follows:]
                Prepared Statement of Joseph V. Cuffari
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee: Thank you for the opportunity to testify today about the 
Department of Homeland Security Office of Inspector General (DHS OIG), 
our important mission, and my on-going efforts to make it a model 
workplace.
    I look forward to discussing with you the Government Accountability 
Office's (GAO) draft report about our office, GAO's observations and 
recommendations, and the ways in which DHS OIG will continue to strive 
for excellence. Throughout my more than 40 years in public service--in 
the U.S. Air Force, the Reserves, the Air National Guard, and as a 
career civil servant--I have worked hard to find process improvements, 
efficiencies, and better ways of doing business at every station. This 
includes considering feedback from important oversight agencies such as 
GAO.
    I am also grateful for this committee's support of our office. I 
have had the pleasure to meet personally with the Chairman, Ranking 
Member, and over half of the Members of this committee to keep you 
apprised of our important work. With your support and confidence in our 
office, we have made significant strides since my confirmation in July 
2019.
    A great example of our forward progress is the report that we 
released today on the Department's deployment of law enforcement 
officers to Portland, Oregon last summer. In this report, we assessed 
the authority, preparation, and activities of DHS law enforcement 
officers deployed to Portland to protect Federal property. We concluded 
that DHS did not properly exercise its authority to designate and 
deploy DHS component law enforcement officers to help the Federal 
Protective Service (FPS) protect Federal facilities. Moreover, DHS was 
unprepared to effectively execute cross-component activities in 
Portland. Specifically, not all officers had completed required 
training, had the necessary equipment, or used consistent uniforms, 
devices, and operational tactics.
    We have maintained our efficiency and momentum despite a myriad of 
challenges due to COVID-19. We have increased productivity and enhanced 
quality, adopted a data-driven, risk-based decision-making model, and 
passed 3 Council of the Inspectors General on Integrity and Efficiency 
(CIGIE) peer reviews within a 12-month span. Our recently released 
Fiscal Year 2020 Federal Employee Viewpoint Survey scores hit a 5-year 
high. In short, we have left behind a tumultuous 5-year period (2014-
2019) in DHS OIG's brief history, and our organization's compass is now 
pointing in the right direction.
                           oig--then and now
    Prior to my confirmation in July 2019 as only the third Senate-
confirmed DHS Inspector General, DHS OIG was an office beset with 
persistent structural, morale, and ethical challenges. As the committee 
noted in December 2019 correspondence to me, morale was low, work 
products were not always produced to the standards required by CIGIE, 
and I was inundated with internal employee complaints about senior 
leadership. I was faced with innumerable challenges as the new leader 
of DHS OIG--most notably repairing the troubling situations that 
occurred prior to my confirmation:
  <bullet> A former acting inspector general and 2 information 
        technology managers are alleged to have taken actions that led 
        to their indictment on Federal criminal charges for stealing 
        OIG database information.
  <bullet> Under the supervision of another acting inspector general, 
        DHS OIG was forced to rescind over a dozen audit reports in 
        2017 and 2018 because the reports did not meet required CIGIE 
        standards.
  <bullet> In June and July 2019, a member of OIG leadership falsely 
        held herself out as the acting inspector general for 6 weeks.
    For the past 21 months, I have worked diligently to build my senior 
leadership team and to identify, understand, and address the issues 
that have plagued our office. Starting in August 2019, I began speaking 
with Members of this committee, your colleagues, and staff members on a 
bipartisan basis about these issues. Since my confirmation, I have met 
with over 70 Members of Congress from our House and Senate oversight 
committees, as well as numerous members of the Senate Whistleblower 
Protection Caucus. Over the last several months, I have also had very 
productive meetings with then President-Elect Biden's DHS transition 
team and several one-on-one discussions with Secretary Mayorkas.
    Sitting before you today, I am proud to discuss the following 
accomplishments we have achieved in my short time as Inspector General.
Improved Morale
    Our fiscal year 2020 Federal Employee Viewpoint Survey scores hit a 
5-year high, demonstrating that employee morale is heading in the right 
direction. Improvements were noted in employee engagement overall, and 
specifically in the areas of leadership, supervision, intrinsic work 
experience, and global satisfaction. These results were not by chance. 
Since my confirmation, I have implemented the following initiatives to 
improve employee morale:
  <bullet> Increased communication.--I send weekly and ad hoc messages 
        to all OIG staff with updates from senior leadership and 
        highlights of noteworthy accomplishments.
  <bullet> Small group meetings.--I conducted over 60 small group 
        meetings with OIG staff. These virtual meetings typically 
        involved 10-15 employees at a time, where I updated staff on a 
        range of topics including our budget, laptop refresh, 
        organizational changes, and status of work products. All OIG 
        employees were invited to a small group meeting and were 
        provided the opportunity to send questions in advance or ask 
        them in an open forum.
  <bullet> Town Hall meetings.--Since July 2019, I have held 2 town 
        hall-style meetings, in November 2019 and June 2020, where all 
        OIG employees were invited to attend. I anticipate scheduling 
        another town hall meeting this summer.
  <bullet> Increased flexibility.--Understanding the additional stress 
        this unprecedented global pandemic has put on almost everyone, 
        I maximized workplace flexibility options for OIG employees. In 
        March 2020, I implemented a 100 percent telework policy as well 
        as a work schedule we refer to as ``any-80.'' This entitles 
        employees to work any 80 hours within a 2-week pay period. I 
        have received positive feedback from many employees who say 
        this flexibility has helped with unforeseen burdens brought on 
        by the pandemic, such as child care needs, virtual schooling, 
        and aiding older family members.
Improved Work Products
    A small percentage of our past work products were identified as not 
meeting OIG community standards. Although that percentage was small, 
one unacceptable report is still one too many. We took several actions 
to rectify this issue, including:
  <bullet> Bolstered Review Process.--Implementation of rigorous review 
        of all reports to ensure the quality of our work. Even with 
        this enhanced review process, we increased our productivity of 
        audit and inspection reports issued from 64 in fiscal year 2019 
        to 80 in fiscal year 2020. Our workload projections show that 
        we are on track to meet or exceed fiscal year 2020 productivity 
        in fiscal year 2021.
  <bullet> Passing Peer Reviews.--Consistent with CIGIE requirements, 
        our office underwent 3 peer reviews within the last 12 months 
        (Yellow Book, Blue Book, and Investigations). Our office earned 
        a score of ``pass'' for all 3 reviews, which is an important 
        improvement from the ``pass with deficiencies'' score DHS OIG 
        received in 2018 for our Yellow Book review.
  <bullet> Engagement Planning.--With a Department of nearly 500,000 
        employees and contractors to oversee, it is imperative that we 
        select projects that will be the most meaningful and impactful. 
        I adopted a data-driven, risk-based decision-making model for 
        the selection of audit and inspection work which helps us 
        prioritize our oversight. Audit and inspection proposal 
        discussions culminate in a bi-weekly strategy meeting with 
        senior leadership where we actively discuss and select the 
        audits and inspections that our office conducts.
  <bullet> Strategic Planning.--Recognizing the importance of an 
        aggressive but attainable plan for our future, in August 2020, 
        we contracted with the National Academy of Public 
        Administration (NAPA) to assist us in developing a 5-year 
        strategic plan. We awarded this contract because it is the 
        right way to bring about real change. We plan to exercise an 
        option in our contract for NAPA to help us implement various 
        GAO recommendations.
  <bullet> Business Systems Modernization.--We have contracted with the 
        Homeland Security Systems and Development Institute contractor, 
        MITRE, to modernize, integrate, and streamline our business 
        information systems and automate redundant and antiquated 
        manual tasks. This will significantly improve the efficiency 
        and quality of our work by leveraging available technology.
Office Reorganization
    After I was confirmed and arrived at DHS OIG, I discovered that our 
Human Resource Management Division was positioned within the Office of 
Counsel, thereby creating conflicts of interest. Therefore, in January 
2020 I moved the Division to our Office of Management--where it was 
originally located and where I believe it can best serve our 
organization.
    Second, I learned our Whistleblower Protection Unit (WPU), which 
handles sensitive and legally complex investigative cases of 
whistleblower retaliation, was positioned within the Office of Special 
Reviews and Evaluations. I returned attorneys from WPU to our Office of 
Counsel, where it originally resided, so they would receive appropriate 
supervision and leadership. I also assigned a subject-matter expert to 
oversee the unit and ensure it applies appropriate legal standards. In 
my on-going commitment to reduce the WPU's backlog of retaliation 
cases, I reassigned 4 attorneys from another division to supplement the 
WPU's work and right-size the unit. I am confident WPU's backlog will 
continue to decline.
    I continuously review our organizational structure to ensure that 
our programs and offices are strategically aligned to efficiently 
achieve our mission. Last week, I announced the creation of 2 new DHS 
OIG offices: The Office of Innovation and the Office of Integrity.
    The Office of Innovation will plan and lead change across the 
organization, focusing on our business practices, information systems, 
and use of data analytics. The Office of Integrity will uphold 
professional standards through a multidisciplinary approach of 
inspections and investigations. We are recruiting for 2 senior 
executives to lead these offices. As part of this reorganization, we 
retitled some of our senior executive positions to more closely align 
with the practices of our fellow OIGs in large agencies, such as the 
Department of Defense OIG and Health and Human Services OIG. We 
followed GAO model practices to implement this realignment.
Addressing Senior Leadership Vacancies and Challenges
  <bullet> Filling Senior Leadership Vacancies.--Since my confirmation, 
        I have filled the following senior leadership positions: 
        Principal deputy inspector general, chief of staff, general 
        counsel, deputy IG for investigations, deputy IG for 
        inspections and evaluations, and assistant IG for 
        investigations. We are in the process of filling remaining 
        vacancies including for the deputy IG for audits, assistant IG 
        for inspections and evaluations, and deputy counsel.
  <bullet> Addressing Misconduct.--I have made it clear to all OIG 
        staff that I will not tolerate misconduct at any level of our 
        organization. Making good on that commitment, I have been 
        transparent and forthcoming with information on the 
        investigation into the misconduct of former senior officials 
        within our office--information that I have also shared with 
        this committee.
                           gao's draft report
    In March 2020, 8 months after I was confirmed as the inspector 
general of DHS OIG, GAO notified us it would be conducting an 
engagement on ``Challenges Facing the Department of Homeland Security 
(DHS) Office of Inspector General (OIG).''
    At the time, understanding the challenges DHS OIG faced prior to my 
confirmation, I welcomed an independent review of these issues. 
Throughout this engagement, we have been responsive to GAO's requests 
for documents and access to employees for interviews.
    Only 10 days ago, on Monday, April 12, we received GAO's draft 
report. The draft report contains 21 recommendations. We are in the 
process of fully digesting the draft report, evaluating its 
recommendations, and drafting our management response which is due to 
GAO on May 12. With respect to the report's recommendations, 3 themes 
have emerged: Strategic planning, report timeliness and procedures, and 
quality assurance.
    Prior to receiving the report, my office implemented changes that 
address several of the recommendations in these areas. For example, we 
are leveraging our contract with NAPA to incorporate improvements into 
our 5-year strategic plan which will anchor our work and human resource 
planning efforts. Some of the previously discussed strategic changes to 
our organizational structure are aimed at bolstering quality assurance. 
We view GAO's recommendations as a tool to aid our office's continued 
progress, and we appreciate GAO's input and professionalism.
                             on-going work
    Today's discussion would not be complete without including a sample 
of DHS OIG's recently completed and on-going work in areas of interest 
to the committee.
Pandemic Response Oversight
    I serve as 1 of 9 statutory IGs who are members of the Pandemic 
Response Accountability Committee (PRAC), created by the CARES Act, and 
we are coordinating closely with the PRAC when necessary. We have also 
given training to the PRAC and other IGs on some of our innovative 
investigative and inspection techniques. For example, we developed an 
analytical dashboard to identify fraudulent Federal Emergency 
Management Agency's (FEMA) vendors who were contracted to provide 
Personal Protective Equipment (PPE) for the National stockpile. The 
effort resulted in high-impact investigations across the country.
    To date, the DHS OIG has proactively generated or received a 
significant number of COVID-19 fraud complaints Nation-wide. We have 
more than 60 on-going criminal investigations and are working with U.S. 
Attorney's Offices around the country on several COVID-19 fraud task 
forces, including the Department of Justice (DOJ) National Stimulus 
Funds Fraud Working Group, the DOJ National Unemployment Insurance 
Fraud Task Force, the DOJ Procurement Collusion Strike Force, the DOJ 
Grant Fraud Working Group, and the National Center for Disaster Fraud.
    We recently announced, with the U.S. Attorney's Office for the 
Eastern District of Virginia, a 9-count indictment of 4 defendants 
charged with:
    (1) Conspiracy to commit fraud in connection with major disaster 
benefits; (2) fraud in connection with major disaster benefits; and (3) 
mail fraud. The defendants are accused of facilitating a scheme to file 
almost $500,000 in fraudulent unemployment insurance (UI) claims on 
behalf of prison inmates in Virginia.\1\ Our office is co-leading a 
task force with the Department of Labor OIG to investigate fraudulent 
UI claims, which have a DHS nexus because funding was provided through 
FEMA's Disaster Relief Fund under the CARES Act.
---------------------------------------------------------------------------
    \1\ Press Release, Four Individuals Indicted for Fraudulently 
Obtaining Pandemic Unemployment Benefits for Virginia Prison Inmates, 
April 9, 2021.
---------------------------------------------------------------------------
    In February 2021, our office, along with the Veterans Affairs (VA) 
OIG and the U.S. Attorney's Office for the Eastern District of 
Virginia, announced the guilty plea of a defendant for making false 
statements in order to fraudulently obtain more than $38 million in VA 
and FEMA contracts for PPE that he and his company did not possess and 
could not supply.\2\
---------------------------------------------------------------------------
    \2\ Press Release, CEO Pleads Guilty to Defrauding Multiple Federal 
Agencies, Feb. 3, 2021.
---------------------------------------------------------------------------
    We also have numerous on-going audits and inspections of DHS's 
pandemic response, including:
  <bullet> ICE's Efforts to Prevent and Mitigate the Spread of COVID-19 
        in its Facilities
  <bullet> DHS Prioritization of Front-line and Mission-Critical 
        Employees for COVID-19 Vaccines
  <bullet> Audit of USCIS's Ability to Process and Administer 
        Immigration and Naturalization Benefits Requested During the 
        COVID-19 Pandemic
  <bullet> Review of DHS's Priority Telecommunications Services and 
        Capabilities During the COVID-19 Pandemic
  <bullet> FEMA's Federal Coordination Efforts in Response to COVID-19
  <bullet> FEMA's Federal Medical Supply Chain in Response to COVID-19
  <bullet> FEMA's Administration of CARES Act Funding for the Emergency 
        Food and Shelter Program
  <bullet> FEMA's Contracting Practices During the COVID-19 Disaster 
        Declaration
  <bullet> FEMA's Controls of Mission Assignments in Response to COVID-
        19
  <bullet> Physical Storage and Security of COVID-19 Vaccines.
ICE Detention Oversight
    We have a robust body of oversight work on-going regarding ICE 
detention, including:
  <bullet> Unannounced Inspections of ICE Detention Facilities
  <bullet> Allegations about Inadequate Medical Care and Other Concerns 
        at the Irwin County Detention Center
  <bullet> Evaluation of ICE's Oversight and the Use of Segregation in 
        ICE Detention Facilities
  <bullet> Inadequate Prenatal Care and Staffing Deficiencies at ICE 
        IHSC-run Facilities
  <bullet> Medical Vacancies at ICE Detention Facilities
  <bullet> Review of Removal of Separated Alien Families
  <bullet> Audit of ICE's Government Service Contracts.
    We recently published the results of our first virtual unannounced 
inspection, Violations of Detention Standards Amidst COVID-19 Outbreak 
at La Palma Correctional Center in Eloy, Arizona. We were able to adapt 
to pandemic conditions that--for the safety of detainees, detention 
facility employees, and DHS OIG employees--limited our ability to 
conduct in-person inspections.
Border Security Oversight
    Earlier in my career, I gained extensive experience on the border 
as a special agent with the DOJ OIG, where I was a member of a team 
responsible for unannounced inspections of U.S. Border Patrol's quality 
of care of unaccompanied children and other migrants, for which I 
received a PCIE award in 2002. Today, I am personally drawing on that 
experience as inspector general.
    Members of my senior staff and I traveled to the Southwest Border 
during the first week of April to meet with OIG staff in the field and 
personally observe conditions. This followed a similar visit that we 
made to the Southwest Border in October 2019. Observations from our 
recent visit resulted in 2 new projects, listed below, and will 
continue to inform our audit and inspection work in this area. 
Currently, we have the following projects on-going:
  <bullet> ICE's Contract to House Migrants in Hotels
  <bullet> DHS Border Admissibility Screening Operations During the 
        2021 Migrant Surge
  <bullet> Extent of CBP's Testing or Plans to Test Migrants for COVID-
        19 at the U.S. Border with Mexico
  <bullet> Review of a February 16, 2020 Childbirth at the Chula Vista 
        Border Patrol Station
  <bullet> CBP's Procedures for Detained Migrants Experiencing Serious 
        Medical Conditions
  <bullet> DHS DNA Collection
  <bullet> DHS Management and Oversight of Immigration Hearings in 
        Temporary Courts along the Southwest Border
  <bullet> ICE's Enforcement Efforts to Combat Human Trafficking
  <bullet> CBP Leadership's Knowledge of and Actions to Address 
        Offensive Content Posted on Facebook by CBP Employees
  <bullet> CBP's Free and Secure Trade (FAST) Program
  <bullet> CBP's Searches of Electronic Devices at Ports of Entry
  <bullet> CBP Management of Aviation Fleet
  <bullet> CBP's Management of Radiation Portal Monitors.
    We recently published 2 reports likely to interest the committee: 
DHS's Fragmented Approach to Immigration Enforcement and Poor Planning 
Resulted in Extended Migrant Detention During the 2019 Surge and CBP 
Has Improved Southwest Border Technology, but Significant Challenges 
Remain. We look forward to sharing the results of our on-going work 
with you when it is complete.
Events of January 6, 2021
    We initiated 2 reviews to examine the role and activity of DHS and 
its components in preparing for and responding to the events at the 
U.S. Capitol on January 6, 2021. We are evaluating DHS's responsibility 
for providing intelligence to law enforcement and the role of DHS law 
enforcement components in responding to the attack. We also recently 
initiated a review of DHS's role in preventing and protecting the 
Nation from domestic terrorism and violent extremism.
                               conclusion
    The issues within DHS OIG that GAO identified in its draft report 
did not manifest overnight. They happened over the course of many 
years. Therefore, it would be presumptuous to suggest that I can fix 
all of these issues overnight. I am wholly committed to the staff of 
DHS OIG, this committee, Congress, and the American people that I will 
spare no effort to build a stronger and better DHS OIG. I believe our 
improved morale, superior work products, and revitalized leadership 
over the past 21 months demonstrate that DHS OIG is now headed in the 
right direction. I have every confidence in our future success.
    Thank you for the opportunity to discuss the important work of the 
OIG and our plans to work with the GAO to improve our operations. This 
concludes my testimony, and I look forward to answering any questions 
you may have.
Appendix A.--December 6, 2019 Letter from the Senate Homeland Security 
and Governmental Affairs Committee and the House Committee on Homeland 
                                Security
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman Thompson. I thank both witnesses for their 
testimony.
    I would remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for questions.
    Mr. Currie, I understand that the soon-to-be-released 
report you referenced in your testimony challenges and looks at 
the Department Office of Inspector General for several years 
and that you make 21 recommendations. Is this normal in terms 
of recommendations, or is that an unusually high number of 
recommendations?
    Mr. Currie. Thank you, sir.
    This is a very large number of recommendations, 
particularly when we look at one specific office or sub office 
within a department. It is not out of the question that we 
would make this many recommendations in one report, especially 
if the scope is very large, but this is definitely a very large 
number of recommendations when looking at the management of one 
entity in the Government.
    Chairman Thompson. I assume you have presented these 
recommendations to the IG's office?
    Mr. Currie. Yes, sir.
    Chairman Thompson. When do you expect a response back?
    Mr. Currie. The final response is due back by May 12.
    Chairman Thompson. OK. Thank you very much.
    Dr. Cuffari, as I assume we both are aware, on August 4, 
2020 GAO found that Acting Secretary Wolf and Acting Deputy 
Secretary Cuccinelli were serving in those roles pursuant to an 
invalid order of succession. GAO referred that the DHS IG for 
questions. In a September 2020 letter to this committee, the 
OIG declined GAO's referral and disputed its conclusion.
    Now, I understand that at an August 19, 2020 meeting you 
informed senior staff that you would meet with Acting Secretary 
Wolf to discuss the GAO report before making a decision on how 
to proceed. Did Secretary Wolf tell you not to accept the GAO 
referral?
    Mr. Cuffari. Mr. Chairman, just to clarify, I don't believe 
I actually had a meeting with the Secretary reference that 
matter. It was probably regarding other on-going investigations 
that we had. I did make a decision to review the GAO report. My 
determination after considering input from my career 
professional staff was that it would--that matter of question 
would best be addressed as an inter-branch dispute by the 
Judiciary Branch. As a matter of fact, I believe 6 U.S.--they 
are district courts, have been looking at that issue and have 
ruled. Four additional ones are embarking on the same issue.
    Chairman Thompson. So you are saying that to say what?
    Mr. Cuffari. I am just filling in the blanks, sir. I don't 
believe I had a meeting with the Secretary involving this. My 
Office of Counsel may have spoken with their counsel's office, 
but I don't believe I had a meeting with the Secretary about 
that. I issued my conclusions.
    Chairman Thompson. So you do understand the appearance of a 
conflict in something this sensitive goes to the credibility of 
the Inspector General's Office. If there is any communication 
around this issue for which you were asked by GAO to look into?
    Mr. Cuffari. Yes, sir. Well, I just go back to my record. 
You know, it speaks for itself. We have improved our FEVS 
scores, we have increased productivity during the pandemic, and 
I have increased the quality of my reports. I just got done 
passing 3 peer reviews.
    I am--again, I believe in July of last year this question 
may have come up about outside influence of our office. Again, 
I will commit to you and the other Members of this committee, 
and to Congress at large, that I get no outside influence 
regarding my decisions to undertake or not undertake a 
particular matter.
    Chairman Thompson. Thank you.
    Chair recognizes the Ranking Member for questions.
    Mr. Katko. Thank you, Mr. Chairman.
    Mr. Currie, in preparing for today's testimony I was--I 
don't know if shock is the right word--but very surprised by 
the amount of recommendations and findings in here. Twenty-one 
is an unbelievable number for something like this. But I 
commend you for your thoroughness, because if we don't know 
there is a problem, we don't know how to fix it. That is what 
your role is and that is what the role of OIG is in my opinion. 
You know, we have to ensure that you are both performing at the 
top of your games.
    So, Mr. Currie, briefly, this report spans from 2015 to 
2020, am I correct?
    Mr. Currie. Yes, sir.
    Mr. Katko. OK. So much of this report predated the time 
that Mr. Cuffari is in office, is that fair to say?
    Mr. Currie. Yes, sir.
    Mr. Katko. OK. So what do you think would be the first 
steps that the OIG should take to instill a culture of 
integrity and professionalism at OIG? What do you think they 
should be and have you seen any signs that they are starting to 
go in that direction?
    Mr. Currie. Well, I think all of our recommendations are--I 
categorize them as the building blocks or the steps. Some of 
them need to be sequenced, some of them--you know, one comes 
after another.
    You know, one of the things that we talk about at the end 
of the report is that I think that all of these things should 
be looked at as an organizational transformation effort. There 
are very specific protocols and best practices looking at 
decades of past Federal transformations and reorganizations to 
guide this type of thing, because they work. So I think all of 
these things need to be put together into one transformational 
plan. It needs to have a dedicated management leadership team 
that is responsible for it. There needs to be, for example, a 
communication plan to all employee about what the vision is, 
what the time lines are, what the metrics are, and how do we 
know when we have reached success.
    There needs to be constant communication with Congress and 
others. There is a very specific process for doing this and it 
is not impossible. It has been done before.
    Mr. Katko. Mr. Currie, I thank you very much for your 
professionalism and your thoroughness. It is a critically 
important thing you are doing, so I guess I just want to say 
keep it up.
    Dr. Cuffari, you have got a--you know, this is not a great 
report for you to have. Obviously a lot of this predated your 
time there, but, you know, you are the head of this now and I 
want to get a feel from you, and some assurances, what you are 
doing to help turn this ship around because you have got a 
monumental task in front of you. We want to hear what your 
vision is and what you are planning to do to turn this around.
    Mr. Cuffari. Yes, sir. Thank you.
    So, first off, you have my commitment that I am going to 
continue to work with my counterparts at GAO to continue to 
improve our office here. We appreciate obviously the 
committee's continued support for our efforts.
    As I mentioned in my opening statement, back in August 
2020, last summer, we contracted with NAPA to assist us in 
developing a 5-year strategic plan. As you know, all subsequent 
organizational functions flow from the top and the 
organizational plan is basically our bedrock. We didn't have 
one in the few years that I have been here, and so subsequently 
I decided that I was going to follow Congress'--you know, their 
recommendation in the sense that they urge departments to 
strongly embrace NAPA and as NAPA provides expert nonpartisan 
advice in solving agencies' management challenges.
    So we have done that, NAPA is poised to give us a report 
toward the end of this summer. We are going to go and exercise 
a 1-year extension option with them so that they will help us 
implement the GAO recommendations.
    Mr. Katko. Thank you very much. I appreciate it.
    Mr. Chairman, before I yield back I just wanted to offer a 
suggestion, a respectful suggestion that this to me is--should 
be the first of a series of hearings with OIG, and maybe with--
because we have to get the report back and once we get the 
report I want to see what progress is being made going down the 
road, looking at the 21 deficiencies identified. So perhaps at 
some point, 6 months from now or whatever, we need to revisit 
this issue and see what progress is being made.
    With that, I yield back.
    Chairman Thompson. Thank you very much. I assure the 
Ranking Member, as soon as the response is officially provided 
back to GAO, we will take it back up before----
    Mr. Katko. Very good. Thank you, sir. Thank you.
    Chairman Thompson [continuing]. Not too long.
    The Chair now recognizes other Members for questions they 
may wish to ask the witnesses.
    As previously outlined, I will recognize Members in order 
of seniority, alternating between Majority and Minority. 
Members are reminded to unmute themselves when recognized for 
questioning, and to the extent practical, to leave their 
cameras on so they are visible to the Chair.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much for 
this very important hearing and thank you to the Ranking 
Member.
    Having been on the Homeland Security Committee for now 2 
decades I know that in the midst of the leadership of any 
Secretary of Homeland Security the IG is crucial.
    So, Mr. Currie, let me raise questions with you before I 
ask the new inspector general--at least a person different than 
what we have dealt with--in my framework, or in the frame of my 
question, I indicated the magnitude of responsibilities of the 
Homeland Security Department. This committee, by the way, our 
Chairman and along with those of us as Members first noted 
domestic terrorism as one of America's greatest threats. The 
responsibility of homeland security is domestic security, 
National security.
    So in the context of what you found that--operating without 
a strategic plan, maybe not an effective system of internal 
quality assurance, have no way of knowing of its internal 
processes, the time to complete projects is significantly 
increased--in that backdrop, how dangerous is it in terms of 
the Nation's security when you don't have these processes in 
place and really a strategic plan? Because this Department is 
the [inaudible] go-to Department on domestic security. When we 
are not secure, it is the one who should have provided the 
profile and notice to this Nation.
    Mr. Currie.
    Mr. Currie. Thank you, ma'am.
    I think there are 2 things. The first concern I would have 
with that is that you don't know whether you are addressing the 
highest risks. There is nothing that this Department does that 
isn't sensitive and sometimes controversial and in the public 
eye. Without a strategic plan or a clearly communicated set of 
priorities, nobody knows what the focus is, or maybe more 
important, why.
    I think the second concern is without those things it 
leaves the option in there for filling in--other people to fill 
in gaps as to why certain issues are being addressed or the IG 
is taking on certain work and not others. The way you combat 
that is very clear planning and clear communication about what 
your priorities are.
    Ms. Jackson Lee. Does it endanger or does it lessen our 
quick response and our ability to secure the Nation?
    Mr. Currie. It can, ma'am. I mean if you are not doing the 
work at the highest quality, the risk is that you are not 
identifying the problem areas as quick as you could to address 
them as quick as possible.
    Ms. Jackson Lee. Thank you.
    You might comment on that as well, to the new inspector 
general. I have quick question for you, Mr. Cuffari. Thank you.
    In the spring--on the fall of 2020, a group of us wrote--
172 Members wrote a letter to the IG on the case of a 
whistleblower, Ms. Wooton, at the Irving County Detention 
Center. We also had as a case, Ms. Pauline Negegy Binam, who I 
had to work to get off a plane as she was being deported, and 
she was one of the women that said that her organs were taken 
out at this particular facility.
    I would be interested in whether your office is even aware 
of this. We have been waiting for a report on this. If you 
would respond to that, as well as my comment about the findings 
of the GAO that you have no strategic plan. Is it your 
assessment that we are less secure with no strategic plan and 
no ability to interact with respect to internal quality 
assurance?
    Inspector general.
    Mr. Cuffari. Yes, ma'am. It is very nice to visit with you 
again.
    Ms. Jackson Lee. Thank you.
    Mr. Cuffari. I appreciate Mr. Currie's comments. I agree 
with them. That is the reason that early on, even before GAO 
actually ramped up and took a look at our organization, that I 
hired and contracted with NAPA to help us develop this 
strategic plan. I believe that, again, that is the foundation 
for us going forward. It gives us the solid rock and all the 
work flows from that.
    Regarding the Irwin Detention Facility, ma'am, we opened a 
special review in the summer of last year. I believe we have 
responded to all the Members that that review was open by our 
office. We are working that currently. We have interviewed Ms. 
Wooton on a number of occasions with her attorney and we have 
interviewed several of the female detainees. We have collected 
documents from ICE and we have also interviewed several staff 
at the hospital where the attending physician works. We are 
getting to the point where we are completing that work and we 
are using our contracted medical services team that you 
graciously were able to fund for us last year, and we are 
looking at the health care that was provided to those 
detainees.
    Ms. Jackson Lee. Thank you.
    Mr. Chairman----
    Chairman Thompson. The gentlelady's----
    Ms. Jackson Lee. May I offer documents into the record at 
this time, Mr. Chairman, or?
    Chairman Thompson. Yes.
    Ms. Jackson Lee. Mr. Chairman, thank you. I know my time 
has expired. Thank you so very much.
    Let me offer into the record ``A former DHS watchdog who 
got too cozy with managers, was put on leave.'' That was dated 
April 25, 2014, certainly before you, inspector general. And 
the biographical sketch of Ms. Pauline Negegy Binam, a woman 
who was at the Irving and thought that she had organs removed 
without her permission and was then almost deported. She 
obviously did not get deported, but almost deported when she 
wanted to tell her story.
    I ask unanimous consent, Mr. Chairman.
    Chairman Thompson. Without objection, so ordered.
    [The information follows:]
                    Article by Government Executive
   former dhs watchdog who got too cozy with managers is put on leave
Yearlong probe finds Charles Edwards violated principle of IG 
        independence.
April 25, 2014
https://www.govexec.com/management/2014/04/dhs-watchdog-who-got-too-
        cozy-managers-put-leave/83221/
    The need for watchdogs to operate independently of their agencies 
prompted a shakeup on Thursday at the Homeland Security Department 
inspector general's office, resulting in a former IG being placed on 
leave.
    Charles Edwards was removed from his interim post on the DHS 
science and technology staff following the release of a Senate report 
detailing his inappropriate socializing and sharing of draft documents 
with managers of the employees he was investigating. Edwards had been 
the subject of a yearlong probe by a Senate Homeland Security and 
Governmental Affairs subcommittee.
    ``The subcommittee found that Mr. Edwards jeopardized the 
independence of the OIG,'' said the report on the investigation, led by 
Sens. Claire McCaskill, D-Mo., and Ron Johnson, R-Wis, of the Financial 
and Contracting Oversight Subcommittee. Edwards had an ``inadequate 
understanding of the importance of OIG independence'' the report said. 
``Mr. Edwards did not obtain independent legal advice and directed 
reports to be altered or delayed to accommodate senior DHS officials. 
Mr. Edwards also did not recuse himself from audits and inspections 
that had a conflict of interest related to his wife's employment.''
    Edwards, an engineer with 20 years of Federal experience, including 
stints at the Transportation Security Administration and the Postal 
Service, ``socialized with senior D.H.S. officials outside of work over 
drinks and dinner,'' the report said. ``The subcommittee obtained 
emails where Mr. Edwards told the D.H.S. chief of staff that he truly 
valued his friendship and that his `support, guidance and friendship 
has helped me be successful this year.' ''
    Homeland Security Secretary Jeh Johnson, in placing Edwards on 
administrative leave Thursday, told reporters, ``Other individuals who 
are apparently and allegedly implicated have already left DHS, and if 
additional information comes to light, I will continue to take 
appropriate action.''
    Edwards was cleared of other allegations, such as abuse of 
Government resources in travel and charges of nepotism, the 
subcommittee found. Allegations that he destroyed records and favored 
certain employees and retaliated against others were not substantiated, 
said the report, which was sent to the Council of the Inspectors 
General on Integrity and Efficiency. ``However, the subcommittee did 
find that there was a wide-spread belief that Mr. Edwards engaged in 
those actions and that belief contributed to an office environment 
characterized by low morale, fear, and general dissatisfaction with Mr. 
Edwards' leadership,'' the report stated.
    Edwards resigned from the IG's office in December on the eve of 
scheduled Congressional testimony, and has since been replaced by John 
Roth.
    The drama at the Homeland Security IG's office has been followed 
closely by advocacy groups for Government transparency and 
accountability. Danielle Brian, executive director of the Project on 
Government Oversight, which tracked the issue to highlight the role of 
whistleblowers in feeding information to the senators, told Government 
Executive on Friday, ``We are seeing growing evidence that acting IGs 
should be removed from consideration for the permanent jobs at their 
agencies. Doing that would remove the incentive to improperly curry 
favor with the agency management they're supposed to be overseeing.''
    The nonprofit Cause of Action, which conducted its own 2-year probe 
of Edwards, issued a statement noting that the inspectors general 
council continues to investigate his conduct. The group raised 
``concerns to President Obama about the destruction of records and 
complaints filed about his misconduct that would warrant Edwards' 
removal from office and potential criminal liability,'' it stated. ``We 
know that the Office of Special Counsel forwarded at least one 
complaint about Edwards to CIGIE.''
    Cause of Action sued the DHS IG office for failing to produce 
documents requested under the Freedom of Information Act. ``This 
transparency failure is now costing time and resources in court for 
what could have been a simple compliance with FOIA,'' the group said. 
``CIGIE should complete its investigation as expeditiously as possible 
and refer evidence of criminal conduct to the Department of Justice'' 
given that Edwards is technically still a DHS manager.
                                 ______
                                 
            Biographical Sketch of Ms. Pauline Nadege Binam
    Ms. Pauline Nadege Binam is a 30-year-old woman who has lived in 
the United States since the age of 2 years. She has a 12-year-old 
daughter. She has a mother, father, and 4 sisters, 2 are U.S. citizens 
and 2 are DACA. She has no immediate relatives living in Cameroon.
    On July 12, 2019 she was ordered removed from the United States and 
her appeal was denied on January 21, 2020. Her attorney filed an 
emergency stay of removal with ICE on September 15, 2020.
    Factors weighted against her remaining in the United States 
involves her 2 admissions of guilt in court proceeding in North 
Carolina: A shoplifting case at age 18 and at age 24 a misdemeanor 
possession both are listed as convictions.
The case: Ms. Pauline Nadege Binam
    The individual is a 30-year-old woman from Cameroon who has lived 
in the United States for the past 28 years.
    She has been in ICE custody for the past 3 years, since October 
2017 until now.
    While in the Irwin County Detention Center in Georgia, the 
individual was told she needed a D&C procedure, which removed tissue 
from inside the uterus.
  <bullet> According to the Mayo Clinic, this procedure is used for the 
        following medical reasons:
  <bullet> Clearing out tissues that remain in the uterus after a 
        miscarriage or abortion to prevent infection or heavy bleeding;
  <bullet> Removing a tumor that forms instead of a normal pregnancy;
  <bullet> Treating excessive bleeding after delivery by clearing out 
        any placenta that remains in the uterus; or
  <bullet> Removing cervical or uterine polyps, which are usually 
        benign.
    The need for the D&C procedure alone raises questions regarding the 
conditions of her detainment in the Irwin County Detention Center.
    However, during what should have been a D&C procedure, she was put 
under anesthesia, and the doctor performed a salpingectomy instead, 
which removed one of her fallopian tubes without the individual's 
knowledge or consent.
    The individual was never told why her fallopian tube was removed 
and was eventually transferred to the Montgomery Processing Center in 
Texas.
    This individual and the details surrounding her treatment and 
medical procedure should be investigated.
    On September 14, 2020, the nonprofit Project South, along with 3 
other nonprofits, Georgia Detention Watch, Georgia Latino Alliance for 
Human Rights, and South Georgia Immigrant Support Network, filed a 
complaint on behalf of detained immigrants at the Irwin County 
Detention Center and of a nurse who worked at the facility.
    Despite this, ICE continued to carry through with her deportation.
    Knowing this, I intervened on September 16, 2020, and disrupted her 
removal while in process from the United States.

    Chairman Thompson. The Chair recognizes the gentleman from 
New Jersey, Mr.--I am sorry, the Chair recognizes the gentleman 
from Louisiana, Mr. Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Chairman Thompson and Ranking 
Member Katko, for holding today's hearing.
    Although I believe it is important for the committee to 
have a discussion about the operations of the inspector general 
within DHS, we would be remiss not to note that there is a very 
urgent matter to discuss, a humanitarian crisis at our Southern 
Border. I look forward in the future where we can discuss and 
work together to resolve this threat to our sovereignty and the 
human beings down there that are suffering incredibly. What we 
face is unprecedented and should be addressed aggressively and 
in a bipartisan manner.
    But thank you for holding this hearing. It is important as 
well.
    Dr. Cuffari, I have not received your video feed, but I 
presume that you are still here. You mentioned in your written 
testimony, sir, that since your confirmation as inspector 
general employee morale has improved, to which you referred to 
as a 5-year high. We have held hearings in the past that 
address this issue and I am pleased to see improvement if that 
is the case. There is no question that the crisis at the 
Southern Border is clearly overwhelming DHS personnel, so much 
so that Secretary Mayorkas has asked for volunteers to aid in 
the overwhelming number of migrants at the border.
    Can you describe what steps your office is taking to ensure 
the well-being of DHS front-line workers at the border please, 
sir?
    Mr. Cuffari. Well, Mr. Higgins, nice visiting with you 
again. My video is not working. There is some buffering 
problems, but I am on just audio.
    Mr. Higgins. Understood. OK.
    Mr. Cuffari. OK. So regarding the border, I took a 
proactive approach. Two weeks ago a few of my senior staff and 
I visited the Southwest Border in Texas. We spoke with subject-
matter experts from the Border Patrol and from ICE's detention 
facilities, as well as sheriffs, local individuals, and the 
U.S. Attorney's Office. We went to McAllen, Texas, Laredo, Del 
Rio, and Eagle Pass and took a view. I have to tell you that as 
a father and as a grandfather, I was terribly troubled that the 
cartels are making money hand over fist and individuals down 
there are just abandoning children in the desert.
    We are opening a review to ensure that DHS is properly 
handling and vaccinating their front-line employees and that we 
may be opening a review as well to consider their staffing 
models, both at the Border Patrol ports and the ports of entry.
    Mr. Higgins. You have mentioned some important steps there 
and I presume you will keep the committee advised as progress 
is made regarding your interaction with DHS front-line workers.
    I have one last question in the interest of time--and just 
to advise my committee Members, colleagues, I cannot see the 
clock on my screen, so if I am running out of time, I 
apologize. But you listed in your testimony, sir, that--you 
mentioned the ICE detention facilities and unannounced 
inspections. I would like you to share with the committee and 
America some insight into that. Can you describe any trends 
that you have seen and how these--give us an overview of the 
unannounced inspections. Because I like that program.
    Mr. Cuffari. Yes, sir. So you do have my commitment to 
continue to keep the committees informed of our progress.
    But regarding the unannounced inspections, we continue to 
do those even in the COVID sort-of restricted environment. Our 
most recent work was published a few months ago in March. It 
involves the La Palma Detention Facility in Arizona. We opened 
that due to a rising COVID spike of detainees. We issued a 
report. We did that remotely to protect not only our employees 
but also the detainees and the workers in the facility. But we 
issued several findings and we have 8 recommendations that the 
Department is considering for implementation.
    Mr. Higgins. Thank you.
    Chairman Thompson. The gentleman's time has expired. Thank 
you very much.
    The Chair recognizes the gentleman from New Jersey for 5 
minutes, Mr. Payne.
    Mr. Payne. Yes, thank you, Mr. Chairman. Again, good to see 
you and for this timely hearing.
    Mr. Currie, throughout the last year-and-a-half this 
committee has heard from numerous current and former employees 
about how the IG fostered an environment of punishment for 
dissent and fear of retaliation. In the unsolicited email you 
see on the screen, the director of OIG's Whistleblower 
Protection Unit said that although I likely have information 
that is relevant to the issues that we are looking at, I am 
concerned that my agency may not respect 5 USC 7211, the 
prohibition against interfering with or denying the right of an 
employee to furnish information to a Congressional committee.
    What did GAO find with respect to the morale of the 
employees at the OIG and how has it affected the willingness of 
staff to share their concerns?
    Mr. Currie. Yes, sir. So we actually don't have the most 
recent morale scores from OPM. I think those are due to come 
out any day now or any week now, so I am not sure what has 
happened in terms of those numbers over the last year. But one 
of the things that we have found pretty consistently across all 
the offices we looked at is a lack of clear policies and 
procedures surrounding a lot of different things. One of those 
things is human capital plans and measures.
    So, for example, we found that the IG did not have an anti-
harassment policy, they had no performance management policy 
for its employees at the time and there was question and 
confusion among people about whether they did or didn't. There 
was question about whether certain policies were outdated, were 
in effect, or were not in effect. I think what this did was 
this made people call into question certain decisions they were 
observing from, you know, top-level staff. This seems somewhat 
arbitrary. I think the problem is when you have no clear 
policies or procedures and it is not transparent, it is very 
difficult to be consistent in your application of those 
policies and procedures, and so people fill in the gaps and it 
creates an environment sometimes where there is fear because 
there is no consistency or transparency.
    Mr. Payne. What kind of impact does this type of 
environment have on OIG's ability to achieve its mission and 
implement your recommendations?
    Mr. Currie. Well, I think first of all it is very--it makes 
it difficult to plan ahead. I mean, for example, one of the 
things we found was a lack of a clear quality and review 
process for reports. We heard from people who would complete 
their audit work and reports and send reports up the chain for 
review. In one case we heard they waited 6 months to hear back. 
They had no sense on when things were going to be returned.
    So I mean this just makes it very, very difficult to plan 
your work and, frankly, just negatively impacts morale.
    Mr. Payne. What kind of leadership do you think it will 
take to solve the issues that DHS OIG faces?
    Mr. Currie. Yes, sir. I mentioned in my opening statement, 
we at GAO have looked at organizational transformation across 
Government so often over the decades that we have developed a 
set of best practices that is not just academic theory, these 
are things that we have seen successful organizations do. I 
think first of all, one of the things it takes, it takes a very 
open and humble approach to working with the whole organization 
and the employees to address these issues. If you do not have 
your employees on board with you and they are not part of this 
and constantly communicated with, and it is just a top-down 
exercise, it will not be successful. I think that the employees 
have to buy in.
    Mr. Payne. Yes. Well, frankly, it is stunning that the 
OIG's own Whistleblower Protection Unit did not believe the 
office would uphold the law and thus refused to speak to 
Congress until he had already left. I worry other employees are 
not coming forward for fear of retaliation.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from North Carolina for 
5 minutes, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Currie, last month Senator Capito and 39 other Senators 
submitted a request to GAO, and then I subsequently joined, as 
did 59 other House Members, to investigate the Biden 
administration's decision to halt Congressionally-appropriated 
funding for the border wall. It appears clear that the Biden 
administration violated the Impoundment Control Act in taking 
this action. It is my understanding that news outlets have 
reported GAO will be opening an investigation into this action 
by the Biden administration.
    As someone who is a subject-matter expert on reviewing DHS 
policies at GAO, can you confirm that GAO is indeed opening an 
investigation on whether President Biden violated the 
Impoundment Control Act?
    Mr. Currie. Thank you, sir.
    Border Security and Immigration is not my subject area, but 
I am pretty sure what you said is accurate. I will get back to 
you as soon as possible with a definitive answer to that.
    Mr. Bishop. If that in fact is correct, as you believe, how 
quickly can we expect GAO to reach conclusions?
    Mr. Currie. Well, thank you, sir.
    I can't answer that today. Our Office of General Counsel 
will be conducting that review. But I will put you in touch 
with those folks ASAP and get you an answer.
    Mr. Bishop. Thank you, sir.
    If President Biden wishes to follow the law and comply with 
the Impoundment Control Act, would you recommend that he 
restart border wall construction immediately?
    Mr. Currie. I don't have a position on that, sir. That is 
not my area of expertise.
    Mr. Bishop. Thank you, Mr. Currie.
    Dr. Cuffari, following up on your comments in response to 
Representative Higgins about your visit to the Southwest 
Border, did the conditions that you observe there constitute a 
crisis?
    Mr. Cuffari. It is so nice to meet with you again.
    I heard that term be used to describe the on-going problems 
at the border. It is not a term of art that I use. It is very 
deeply troubling. What I can just share is what the subject-
matter experts who are dealing with this every day on the 
ground shared with me, and that is they are overwhelmed, it is 
causing problems for morale within CBP and for the Office of 
Port Enforcement. As a result we have opened up--it informed 
our work--we have opened up 3 new projects that we've told the 
Department about. One is to look at ICE's contract with the 
housing of migrants and hotels, we are looking at border 
security screening operations, and we are looking at DHS and 
Health and Human Services interoperability to pass information 
about the status and whereabouts of particular migrants.
    Mr. Bishop. Thank you, Dr. Cuffari. Will OIG--will your 
office investigate whether policy change is adopted by the 
Biden administration caused these very troubling circumstances, 
to use your words?
    Mr. Cuffari. No, sir. We don't investigate policy 
decisions. We investigate if policy is implemented in the law 
how those are--whether they are being effective or not.
    Mr. Bishop. You made reference to how the Mexican drug 
cartels are taking advantage of very unfortunate circumstances 
on the Southern Border. Would you agree that the Department of 
Homeland Security has a responsibility to avoid adopting 
policies that facilitate the criminal enterprises of Mexican 
cartels?
    Mr. Cuffari. I am sorry, I can't comment on policies or 
whether they should be implemented or not.
    Mr. Bishop. So that is just outside your purview, is that 
it?
    Mr. Cuffari. Yes, sir. As an independent inspector general, 
it is.
    Mr. Bishop. Very well.
    Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from California for 5 
minutes, Mr. Correa.
    Mr. Correa. Thank you, Mr. Chairman. Can you hear me OK?
    Chairman Thompson. We can hear you.
    Mr. Correa. Yes, thank you, Mr. Chairman, for holding this 
very important hearing and thank you Inspector General Cuffari 
and Mr. Currie for joining us today.
    According to the GAO, from fiscal years 2015 to 2020 the 
Office of Inspector General implemented a number of 
organizational changes, however, those changes did not fully 
follow key practices and thus had negative effects or 
consequences.
    For example, some senior leaders describe the amount of 
frequency of organizational change as negatively affecting 
morale.
    Inspector General Cuffari, your office informed the 
committee last week that you announced an organizational 
realignment based on strategic priorities and on-going reviews 
that you initiated. This realignment includes creating an 
Office of Innovation and an Office of Integrity, among other 
things. Inspector General Cuffari, can you please discuss when 
you started your review and who was involved and when staff 
were informed of the review and realignment decisions, sir?
    Mr. Cuffari. Yes, sir. Good visiting with you again.
    So my recent realignment of and the creation of those 2 
offices are actually the third phase of a multi-phase approach. 
My first was to right-size my H.R. group. I needed to return 
that human resources function back to the Office of Management 
where it belonged and get it out of the Counsel's Office. I 
also set up the Professional Whistleblower Unit in my Office of 
Counsel. The third phase, which is the one you just mentioned, 
was to create these 2 offices, of Integrity and the Office of 
Innovation. It was a phased approach. We took about 6 months 
getting into it, starting basically back in the summer of last 
year. Now that--with the creation of those 2 offices, my 
organization will now conform to classic structures that are 
benchmarked at larger organizations in the IG community, such 
as the Department of Defense and the Health and Human Services 
Office.
    I would like to point out that the Office of Integrity--to 
the GAO's credit--this office will have an internal quality 
review and check functions for investigations and audits. My 
Office of Innovation is going to be aligning my strategic 
planning and my data scientist group.
    Mr. Correa. Thank you very much.
    Mr. Currie, given your current work with you and the OIG 
for the past year, what is your reaction to this latest 
reorganization? Does it address the challenges that GAO has 
identified at the OIG?
    Mr. Currie. I can definitely say that I don't think it 
addresses them yet because there hasn't been enough time. We 
just found out about this about a week ago. You know, I think 
it is absolutely in the IG's prerogative and the organization's 
prerogative to make organizational changes. That is often a 
first step that is done in any transformation or 
reorganization. But I can tell you, it is never the full 
solution. Oftentimes it is just the start of the work.
    Once there is a new office it has to be implemented 
effectively, the employees have to clearly understand the 
vision, and it has to establish the policies that are necessary 
so the whole organization understands what it is going to do 
and what role it has played.
    In fact, one of the problems we have identified over the 
past 6 years at the IG has been there has been so many 
organizational changes made, sometimes without the people in 
those offices even knowing about them or why, that that has 
created delays and confusion and has stymied improvement 
efforts through the years too.
    So I think what Dr. Cuffari has said and some of the 
reasoning behind the reorganization seems to make a lot of 
sense, to be in alignment with other similar organization, but 
we will just have to see. We will monitor that as we look at 
how they are implementing the recommendations.
    Mr. Correa. Mr. Ranking Member and Mr. Chair, I do hope we 
have continuing hearings on this issue. It sounds like very 
much the early stages of a work in progress.
    Thank you very much. With that, I yield.
    Chairman Thompson. I assure the gentleman from California 
we will do just that.
    Chair recognizes the young lady from Iowa, Ms. Miller-
Meeks, for 5 minutes.
    Ms. Miller-Meeks. Thank you so much, Chairman Thompson and 
Ranking Member Katko. I appreciate your holding this hearing 
and also the testimony of our witnesses.
    Dr. Cuffari, I want to also personally thank you for taking 
seriously your oversight function of the border crisis. During 
our visit to the border with Homeland Security and Ranking 
Member Katko we learned that Secretary Mayorkas made a trip to 
the border, but remained at the airport. So it is hard to 
conduct oversight of policy when you remain in an airport and 
receiving briefings or hearings.
    We learned at that time, and Ranking Member Katko sent a 
letter forward to HHS, learning that the current procedures 
wherein a sponsor for an unaccompanied minor was to be verified 
and checked and called, that this procedure was being 
``shortcutted'', if you will, not performed. Also background 
checks for those who were supposed to have oversight and 
protection of unaccompanied minors in HHS facilities was also 
being deleted.
    So we are hoping that--I understand from you that you can't 
speak on policy, but that there be some investigation into the 
lack of procedure and the lack of security for those 
unaccompanied minors coming across the border.
    So I thank you for that.
    Mr. Currie, in your professional opinion, and I know you 
have mentioned this, but what additional steps should the IG 
take to prevent this culture from continuing? Granted, that 
this, as you said, has been going on since 2015 up until 2018 
and predates Dr. Cuffari.
    Mr. Currie. Thank you.
    There are many steps, so let me just pick a few important 
ones that I think.
    One thing is is that there has to be a process for updating 
or developing policies around important management principles. 
So things like what is your anti-harassment policy, what is 
your employee performance management policy, what is your 
grievance policy, what is your quality assurance process. You 
know, even down into the level of who needs to review the 
reports and when, what are the time frames, what is the 
synchronization of that. These are all things that any audit 
organization, including ourselves at GAO, we have very strict, 
clear policies and procedures, not just so our own staff 
understand how to do the work and what to expect, but so 
everyone outside externally understand that. You in Congress 
and also as well the agency that gets audited. This creates a 
predictable process, it creates a trusted process with 
integrity, and helps to avoid a lot of the miscommunications 
and problems that can come up.
    I mentioned in my statement, there is always going to be 
friction between an auditor and auditee, but there are things 
that you can put in place to make sure there is integrity in 
the process.
    Ms. Miller-Meeks. Thank you, Mr. Currie. I say this with 
all compliments. My husband, who is a compliance officer, who 
started compliance programs, I am hearing you echoing in my 
ears as you have stated your policies and procedures, and he 
constantly reminds me of policies and procedures and their 
importance.
    Given the breadth and depth of the misconduct--and, again, 
I want to emphasize that you have done--that this has gone on 
from 2015 to 2020, and then you worry about the institutional 
knowledge of those individuals who are from former past 
administrations coming into an other administration and how 
that affects the culture within that department or facility. 
But given the depth of the misconduct, the allegations, the 
lack of leadership surrounding the DHS OIG--and again, Dr. 
Cuffari, knowing that you have only come in recently and you 
are now having to handle this situation--so over these numerous 
years, what can Congress do, what should we do to help 
ameliorate the situation?
    Mr. Currie. Thank you.
    I think the biggest--well, this hearing is a great first 
step, because without this hearing, you know, the public would 
not know about these issues and we couldn't get into the depth 
in discussing them. But I think, as we have mentioned, in 
addition to just, you know, monitoring the recommendations we 
have made and are they being implemented--and, of course, we 
communicate those things to do as part of our routine work--I 
think this needs to be looked at as a transformational effort. 
So I think extra oversight of this will be key. Additional 
hearings I think would be a good way to do that.
    You know, you coming to an agreement with the Office of 
Inspector General of what you expect from them and when would 
be good too, because deadlines are also very important.
    Ms. Miller-Meeks. Thank you very much for that.
    I think both Ranking Member Katko and Chairman Thompson 
have both assured us that we will have continued hearings. Then 
having some score card by which we can measure progress I think 
would be important also.
    Thank you so much and I yield back by time.
    Chairman Thompson. Thank you. The gentlelady yields back.
    The Chair recognizes the gentlelady from New York for 5 
minutes, Ms. Clarke.
    Ms. Clarke. I thank you, Mr. Chairman, and I thank our 
Ranking Member for this very important hearing this afternoon.
    Inspector General Cuffari, we have heard about the Wilmer 
Hale report. You have publicly pushed both the Congress and 
media outlets about the results of an internal investigation 
that you contracted to be conducted by Wilmer Hale.
    According to a Project on Government Oversight article 
released--POGO--yesterday, you spent a lot of taxpayer money to 
conduct this investigation, about $1.4 million, money that 
could have been spent on more important matters than 3 
individuals who no longer work at the OIG who were ultimately 
found to have not been engaged in any unwilful conduct.
    I don't want to waste time on personnel squabbles, but I do 
want to know a little bit more about your decision to open and 
scope this investigation. I am sure you were aware that there 
were claims made to Congress and the Council of the Inspectors 
General on Integrity and Efficiency at CIGIE about other 
employees than the ones you have had investigated. Why were 
these, or those allegations not referred to Wilmer Hale to 
investigate?
    Mr. Cuffari. Thank you, ma'am.
    So I was confirmed as the inspector general of this 
department in July 2019. When I arrived here, after discussions 
with Senate staff and members of the HSGAC committee, I 
realized and was informed I inherited a very, very 
dysfunctional leadership, senior leadership team who were 
presenting to me series of misconduct at the highest levels. It 
is well-documented. It was instability in this organization, 
there was a conflict between leadership that predates my 
arrival, including criminal misconduct by a former acting 
inspector general. I followed the counsel on IG recommendations 
and fulfillment of my responsibilities to protect the integrity 
of this organization and ultimately decided, under competitive 
process, to hire an outside entity. It turned out to be Wilmer 
Hale law firm, whose senior partner conducted the investigation 
and provided us with a copy of the report at the end of 
December of last year.
    The cost of that report was less than 1 percent of my 
entire budget. I think that is a very good use of resources to 
protect the $190 million. I informed the oversight committees, 
I informed the appropriators, and I informed our manager over 
at the Office of Management and Budget, our examiner.
    Ms. Clarke. Well, on that point, General Cuffari, the 
Wilmer Hale report makes clear there were several--also several 
allegations against you. If you were committed to an 
independent review of all related claims, you would have had 
those independent investigators look into those claims as well, 
but you did not. Is that correct?
    Mr. Cuffari. CIGIE actually looked into those allegations 
and dismissed them.
    Ms. Clarke. OK.
    POGO also noted in its article that the Wilmer Hale report 
included investigating individuals who made Constitutionally- 
and legally-protected communications to Congress and CIGIE. 
This is the textbook definition of whistleblower retaliation. 
Do you know whether you or other OIG employees were under 
investigation by CIGIE for whistleblower retaliation?
    Mr. Cuffari. Not to my knowledge, no, ma'am.
    Ms. Clarke. Very well.
    Well, Mr. Chairman, you know, I thank you for this 
opportunity to have our conversation with the IG. I am just 
concerned that, you know, we don't have a conflict of interest 
and we are not getting to the root of the challenges being 
faced within the Department of Homeland Security, in particular 
the IG's office.
    So thank you for being so forthcoming with your responses, 
Mr. IG. It looks like we are sort-of on some thin ice here and 
I would like to continue to look into--you know, as you roll 
out your term here, a lot more transparency to the American 
people.
    With that, Mr. Chairman, I yield back.
    Chairman Thompson. Thank you. The gentlelady yields back.
    The Chair recognizes the gentlelady from Tennessee, Ms. 
Harshbarger, for 5 minutes.
    Ms. Harshbarger. Thank you, Mr. Chairman and Ranking 
Member. Thank you to the witnesses.
    Mr. Currie, you know, it is discouraging to know that there 
was such a lack of policies and procedures, you know, that were 
not implemented. You know, in the business world we look at 
things from, for example, a six sigma basis, and, you know, 
those are strategies that are set out to improve the quality of 
the output of a process. It identifies and removes the 
problem's effect by minimizing the impact. You know, those are 
just common-sense things that these agencies should be doing. 
That is the only way that I can see that you can measure the 
outcome. Because when there is no clear direction--as they say 
in the business world, if you don't bring your business, your 
employees do, because there is no clear path.
    I guess I have a question, how long has the management and 
operational like this, as you found in your report, been in 
place at the Department? I know the report went back to 2015.
    Mr. Currie. Yes, ma'am.
    Well, definitely back to 2015, but we talked about in our 
report that those are just the things, the documents and the 
people we talked to where we could really do a deep dive. There 
are examples we talk about in the report, for example, several 
reports that were retracted well before then, prior leaders who 
were indicted for misconduct, and a lot of their challenges 
that have come up in the past or in past peer reviews that 
indicated there were challenges.
    As the Chairman said in his opening statement, we did a 
review, albeit a lot more limited in scope, back in 2014 that 
identified a few areas where there improvements were needed. 
But it is fair to say this goes back many years.
    Ms. Harshbarger. Yes, absolutely. Thank you.
    Dr. Cuffari, I guess my question is, in your cover letter 
to the Wilmer Hale report you wrote that the Council of the 
Inspector General on Integrity and Efficiency didn't act on 
your complaint regarding the 3 Senior Executive Service 
employees. Did they ever provide you with a reason as to why 
they didn't act on your complaint, sir?
    Mr. Cuffari. Then they referred the matter back to me to 
complete as I saw necessary.
    Ms. Harshbarger. Really? OK.
    Well, it looks like there has got to be--there is some work 
to be done. You know, best practices is the best way to go 
forward and hold people accountable. You know, I hate it for 
this agency because that is what--you know, when you 
investigate misconduct, you expect an outcome.
    So thank you for your time and I yield back.
    Chairman Thompson. Thank you very much. The gentlelady 
yields back.
    The Chair recognizes the gentleman from California, Mr. 
Swalwell, for 5 minutes.
    Mr. Swalwell. Thank you, Chairman. I also want to thank the 
inspector general for appearing, and also for making his office 
available for any questions that we have.
    I first wanted to just see if the inspector general could 
give us an update on the Brian Murphy case. As a Member of the 
House Intelligence Committee we have been briefed on many 
allegations by Mr. Murphy regarding the politicization of 
intelligence at the Department--I am sorry, you hear a 2-year-
old singing ``Let It Go'' from ``Frozen'' in the background--
but this is a serious question, which is what are you doing 
about Mr. Murphy's allegations about the politicization of 
intelligence under the Trump administration, particularly as it 
related to Russia, as well as the Portland investigations?
    Mr. Cuffari. Sir, thanks for visiting with me a few days 
ago.
    Certainly we can--I can provide you and other Members of 
the committee with a closed-door Member briefing. This is 
public so I can't discuss on-going work, but I can tell you 
that I am available at your discretion to receive a briefing--
or to provide a briefing to you and Members of the staff.
    Mr. Swalwell. Great.
    Also, Inspector, would you agree that OIG should be as 
transparent as possible in order for the public and Congress to 
hold the Department accountable?
    Mr. Cuffari. Absolutely, sir.
    Mr. Swalwell. You know, at your confirmation hearing 2 
years ago Senator Rosen of Nevada asked how you would handle 
whistleblower retaliation complaints and you told her you would 
evaluate all the facts and make a final decision and 
recommendations as it related to decisions. However, we have 
not seen, you know, some of the reports made public or provided 
to Congress. I was hoping you could just give us an update on 
if it is your intent that you will be releasing to the public 
or to the Congress these reports.
    Mr. Cuffari. Well, sir. I did make that to Senator Rosen. 
It was a very good question. I answered it truthfully, 
obviously. I believe obviously in maximum protection for 
whistleblowers. There is a standing request from Chairman 
Thompson to my office, which I am fulfilling, to provide ROIs 
of substantiated cases of whistleblower reprisals. We provided 
those and it is on a rolling basis. We have already given some 
and will continue to do so.
    Mr. Swalwell. Further, just in your evaluation of the 
Department, as we look on the authorizing and appropriating 
side, what further resources do you need? I mean just 
recognizing this agency now is approaching 20 years since the 
genesis of its creation, you know, September 11 attack, and, 
you know, it is responsible for homeland security, it is 
responsible for border security, FEMA, cybersecurity. You know, 
what additional resources do you need to make sure--
particularly on the cyber side--to make sure that we are 
protecting our Government against attacks from China and 
Russia? What resources do you need so that you can adequately 
evaluate them?
    Mr. Cuffari. Well, sir, first off, I want to thank the 
House, because it was House-led followed by a Senate increase 
in our budget last year. We are at $190 million. We see need 
for increases in our budget that would support increased 
oversight of COVID and also, as you mentioned, of 
cybersecurity. Any help this committee can give to us, I would 
greatly appreciate it.
    Mr. Swalwell. Thank you and I yield back.
    Chairman Thompson. The gentleman yields back.
    The Chair recognizes the gentleman from Florida, Mr. 
Gimenez, for 5 minutes.
    Mr. Gimenez. Thank you, Mr. Chairman, and thank you to the 
Ranking Member for this hearing.
    I had a question of the GAO. There is a GAO--when you are 
doing your--when you are doing this analysis and this study on 
the IG, as you were formulating and you were getting to some 
findings, were you communicating that with the IG's office? Or 
did you hold everything until the final--a final report could 
be issued?
    Mr. Currie. Thank you for the question, sir.
    We have a very strict process. In fact, Government auditing 
standards outline the process that should be used so there are 
no surprises at the end. So what we do is about--well, this 
happened back in January. We sent over what we call a statement 
of fact, which is most of the report in its entirety and all 
the factual information and data from the report. We send that 
over, we have an exit meeting with the auditee or the 
department we audit, in this case the OIG. We sometimes have 
very significant back and forth, multiple meetings, talking 
about what is in the report, clarifying any information, 
correcting any information that goes on. That process--in this 
case we actually granted extra time than we typically would 
because they wanted to provide us with a lot more documentation 
and information. So we accommodated that.
    Then we send the draft report to them. We just sent it 
April 12. At that time they have a chance to provide their 
official comment and continue to provide any technical comments 
they see, well before public issuance.
    Mr. Gimenez. No, I understand that. But that appears to me 
that you were doing a final report, you did your final--
basically a preliminary report. You have a whole bunch of 
findings and then that is--then, OK, I have got all these 
findings, now, you know, you need to respond to this.
    My question was as you are coming up with these findings, 
do you communicate that, those individual findings to, you 
know, the agency prior to putting out a draft report?
    Mr. Currie. No, sir, because typically we are not finished, 
you know, assessing all the evidence and applying it against 
the criteria. So we don't want to identify any deficiencies and 
potential recommendations to the agency until we are 100 
percent sure in the work that we have done.
    Mr. Gimenez. So you don't put all--these findings that you 
have, each individual finding only comes--you only put that 
together in your first draft report? You don't say, hey, we 
found this issue and it is pretty significant? You are not--you 
don't tell the IG that we found this issue, it is pretty 
significant, until you have some kind of a bigger draft report 
ready to go? Is that what you are telling me?
    Mr. Currie. Yes, sir.
    Mr. Gimenez. OK. You think that is right?
    Mr. Currie. Sir, part of the reason we do that is because 
Government auditing standards are so strict and thorough that 
we don't want to release any information before it has been 
fully vetted.
    We often find things in the course of our work----
    Mr. Gimenez. I didn't say--excuse me, I didn't say that you 
would release the information. I am talking about talking to 
the agency themselves, all right. That you have found something 
and that it is significant and you need to look at this before 
a final report is issued, which could be, you know, a year or 2 
down the road. That is what I am saying. That is my point, OK?
    I have got a couple of other points. You talk about the IG 
not having rules, policies, procedures, et cetera. It would 
seem to me that most IGs throughout the Federal agencies, their 
jobs would be pretty similar. Is that a pretty accurate 
statement?
    Mr. Currie. Yes, sir.
    Mr. Gimenez. OK. So why in the world do we have separate 
standard operating procedures and policies and rules for 
harassment, et cetera that differ from one IG to another in 
different--why do they have to create their own set of SOPs, et 
cetera?
    Mr. Currie. Well, because they all operate within their own 
individual departments. But the Council of Inspector Generals 
sets the best practices for doing that, so it is pretty 
standard across the IGs.
    Mr. Gimenez. It is not mandated that all IGs at least have 
a set of basic principles, that these are the principles that 
the Federal Government says you must adhere to? That is not 
standardized throughout the Federal Government?
    Mr. Currie. No, that is standardized. In fact, at GAO we 
issue generally accepted auditing standards, which are the 
criteria and the standards by which auditors are to follow in 
doing their audits. They use----
    Mr. Gimenez. No, I understand auditing, OK, but you also 
said that they also--that they weren't--they didn't have a set 
of SOPs for, you know, harassment, discrimination, et cetera, 
that it appears----
    Chairman Thompson. The gentleman's time from Florida has 
expired.
    Mr. Gimenez. Thank you, sir.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Nevada for 5 minutes.
    Ms. Titus. Thank you very much, Mr. Chairman.
    Mr. Currie, previously you had Inspector General Cuffari 
testifying or reporting to this committee that the OIG's delay 
in issuing reports was based on the fact that the reports were 
of such poor quality that they required substantive edits. That 
is not much of an admission. I must say that is pretty sorry to 
start with.
    But, anyway, the committee reviewed all the drafts and the 
select brief of these reports, and it didn't appear that that 
was an adequate explanation for why these were taking such a 
long time. Now, this is particularly troubling when you are 
reviewing anything, but especially to me when we are talking 
about some of the issues concerning family separation and 
conditions at ICE facilities.
    Just this past October I joined a letter with several of my 
colleagues from this committee where we shared our concerns 
about the welfare of children being expelled at the Southern 
Border. Inspector General's Office didn't investigate this or 
get back to us, or they were taking an awfully long time.
    I wonder, Mr. Currie, if you could really identify the 
cause for these delays? Was it because they needed so much 
editing? Was it because they weren't a priority? Was it because 
they didn't have the staff to do the reports? Could you address 
that?
    Mr. Currie. Yes, ma'am.
    We actually--that is exactly what we tried to identify. the 
results of what we found are that, for example, there is no 
quality assurance process or process for how the reviews are 
supposed to happen at the end of these audits. So, for example, 
some of the staff told us that when they would send completed 
work up for review they just wouldn't hear back from the front 
office, sometimes for up to 6 months.
    So I think there was a lot of confusion. The staff 
themselves raised that to us, that they didn't even understand 
exactly why some things were happening and moving forward and 
others were not.
    Ms. Titus. Well, this is especially a problem when it is a 
time-sensitive issue, like children at the border. You would 
think that would be given kind-of a priority and they would get 
on that right away. It makes you wonder if they just didn't 
throw it in a drawer and hope we forget about it, or the longer 
they stall maybe the problem would go away.
    So I think that is something that we definitely need to 
address and get some straight answers about.
    So I appreciate you having looked into it and realized that 
it is a serious problem.
    I yield back, Mr. Chairman.
    Chairman Thompson. The gentlelady yields back.
    The Chair recognizes the gentleman from Michigan for 5 
minutes, Mr. Meijer.
    Mr. Meijer. Thank you, Mr. Chairman and Ranking Member, and 
thank you to our guests who are here today. I appreciate both 
the availability and the commitment to trying to reform the 
Office of the Inspector General of the Department of Homeland 
Security.
    I will be very honest, the draft report, I have some very 
serious concerns about the prolific use of acronyms within 
this.
    I guess first, just a quick question, Mr. Currie, as I am 
going through, the CIGIE, what is the best way to briefly--is 
that the CIGIE? I mean how do you guys refer to that?
    Mr. Currie. I think the acronym is referred to as the 
CIGIE.
    Mr. Meijer. CIGIE? OK, thank you. I appreciate that.
    You know, I guess I am always of the opinion that, you 
know, in the Office of an Inspector General wants to be lean 
and focused. I am aware, as not only Dr. Cuffari mentioned, but 
also as has been brought up by many of my colleagues, that the 
issues outlined in this report are stemming from multiple 
administrations over multiple years and obviously Dr. Cuffari 
only took on the role I believe in July 2019 when he was 
confirmed as the inspector general.
    Dr. Cuffari, I want to just dive into something a little 
bit more on the Wilmer Hale report and just how that impacted 
the office more broadly. I know that, you know, that audit, 
that was initially requested by the Senate Homeland Committee 
in December 2019 and then Wilmer Hale was engaged in May 2020. 
What was the interplay like between the initial beginning of 
that--you know, the GAO audit, and then also the Wilmer Hale 
investigations occurring simultaneously? What input or play was 
there between the two?
    Mr. Cuffari. Congressman, I don't believe there was 
interplay between GAO and Wilmer Hale. They were separate 
entities looking at separate functions.
    In the Wilmer Hale example, Wilmer Hale, their career 
senior members of that organization reviewed allegations 
against 3 former career senior executives of this office. It 
made investigative findings, to include misconduct on the part 
of the 3 senior executives.
    In the case of GAO, that was an independent investigation. 
In the case of GAO--actually in both cases we cooperated fully 
with both organizations. We provided them access to our 
employees and to our documents. They reached their conclusions 
independent of any input from anyone in my organization.
    Mr. Meijer. But you agree that they were both obviously 
highlighting evidence of--or highlighting incidents or 
allegations of misconduct and just perhaps flagging morale and 
other organizational and morale issues, correct?
    Mr. Cuffari. That is correct.
    Mr. Meijer. Can you just--really just say I mean how are 
you thinking about, as the leader of this organization, as the 
inspector general itself, changing that culture, changing--
especially a culture that has seen rapid transformation, both 
the organizational restructuring that has been undergone under 
your tenure, but then also, you know, the turnover at the head 
of that office preceding your time? Can you speak a little bit 
more about what you are doing and how we can frankly help in 
those efforts to change that culture and to--as we begin to 
also look to implement some of those 21 recommendations?
    Mr. Cuffari. Sure.
    So I owed it, Congressman, to the career senior staff in my 
office. I have said 120 dedicated employees. I owed to them to 
demonstrate that there is new leadership in this organization 
and that mistreatment of others and retaliation will not be 
tolerated and appropriate action would be taken.
    I basically joined, been helping this committee to continue 
to do robust oversight, regardless of what administration is in 
place, and I am going to continue to do that with the 
committee's assistance.
    Mr. Meijer. Then do you expect that in the future the 
entities like CIGIE and those standards we set, that that will 
continue to be the standard that the DHS OIG is held to?
    Mr. Cuffari. Yes. We also use some standards, frankly, from 
the Department that are published by OPF, since we are part of 
the Executive branch.
    Mr. Meijer. Thank you.
    I yield back.
    Chairman Thompson. The gentleman's time is expired.
    The Chair recognizes the gentlelady from Florida for 5 
minutes, Ms. Deming.
    Ms. Demings. Well, thank you so much, Mr. Chairman, and 
thank you to the witnesses for being with us today.
    Mr. Cuffari, the GAO found that the IG senior leadership 
has not communicated the criteria it uses to approve or decline 
proposed work. This would leave of course the IG staff unsure 
why certain projects are approved and other projects are not, 
resulting in what we all would think is confusion and certainly 
morale issues, which I have heard that word used earlier today. 
We know how important it is.
    I understand that at times the IG has said that his 
office's work must be data-driven. That makes sense. But this 
requirement appears to have been applied inconsistently. For 
example, in July of last year, following the events in 
Lafayette Square in Portland--I know my colleague, Mr. 
Swalwell, asked about this somewhat earlier--but leaders on 
this committee--this committee among others, sought reviews of 
DHS's use of force. Your office responded that it was opening a 
review of incidents in Portland, but never addressed the Secret 
Service use of force in Lafayette Park.
    According to recent reports from the Project on Government 
Oversight, your staff even prepared or proposed such a project 
that would not overlap with the work of other IGs. Makes sense. 
But you personally declined it.
    You also declined a report related to what actions the 
Secret Service took to protect its agents and the public from 
COVID. According to the Project on Government Oversight, as a 
result of your refusal to review the incident at Lafayette 
Square, questions about the Secret Service involvement and 
other questions remain unanswered.
    I am concerned, as I think my colleagues would be on this 
committee, that in the absence of clear criteria and other 
considerations, it creates an environment where politics, the 
politics of the moment can influence those decisions.
    So, Mr. Cuffari, could you tell me what objective criteria 
do you rely on to--did you rely on to decline Congress' request 
to review the events in Lafayette Park?
    Mr. Cuffari. Thank you, ma'am.
    Just so the record is clear, any suggestion by POGO or by 
the Washington Post or anyone else I pull punches on conducting 
robust oversight of the Secret Service for political reasons is 
a complete falsehood. Just not true.
    Ms. Demings. Well, I mentioned the Project on Government 
Oversight, I did not mention the Washington Post. So are you 
saying that the--you are referring to the Project on Government 
Oversight?
    Mr. Cuffari. Yes, ma'am. I believe there was----
    Ms. Demings. OK. All right. Thank you.
    Mr. Cuffari [continuing]. A lot in the Post article as 
well.
    But since I--just so the record is clear, since I was 
confirmed I published 5 reports that include oversight of the 
Secret Service. I just released one today, it is the DHS 
deployment of law enforcement personnel to Portland, Oregon. I 
have 4 others that we did within the last year. I have 4 on-
going projects specifically looking at the Secret Service 
basically----
    Ms. Demings. Specifically at Lafayette Park?
    Mr. Cuffari. Not at Lafayette Park, no, ma'am.
    Ms. Demings. My question involved their actions at 
Lafayette Park. Specifically, have you looked into or do you 
have a report addressing Secret Service involvement, including 
use of force, protection of their agents and the public, at 
Lafayette Park?
    Mr. Cuffari. I coordinated with my colleague over in the 
Department of the Interior whose Park Police was responsible 
for security of Lafayette Park. I asked and he has agreed to 
take a look at the small footprint of Secret Service's 
involvement in that matter. I facilitated that IG's access to 
individuals in Secret Service and in the Department and the 
production of documents. I was told yesterday that there will 
be a section on the Department of the Interior's final report, 
which will be coming out shortly, dealing with the U.S. Secret 
Service.
    Ms. Demings. You feel that is adequate addressing--or at 
least looking into, certainly as the IG, or the IG's office, do 
you feel like that is adequate oversight?
    Mr. Cuffari. Based on my limited resources it was. We had 
another IG who was more ingrained in taking a look at the 
events that occurred there.
    Just for the record, I opened an inspection audit involving 
our communications, as I mentioned, with Health and Human 
Services to date. HHS has asked us to take a look at matters 
occurring within HHS. They are going to facilitate our access. 
It is things that we do in the IG community to help one another 
when we have limited resources.
    Chairman Thompson. The gentlelady's time has expired.
    Ms. Demings. Thank you, Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentlelady from 
Florida--I don't see her. The Chair recognizes Mr. Pfluger from 
Texas for 5 minutes.
    Mr. Pfluger. Thank you, Mr. Chairman. I appreciate the 
ability to have the hearing today.
    I know there has been a lot of discussions on, you know, 
different aspects of the reports that--some of them dated and 
some of them, you know, more recent.
    But I want to focus on a couple of things. Just because it 
was just mentioned, can you please elaborate on the 
investigation with--or the report that you just mentioned on 
HHS and what the Office is doing with HHS and communication? It 
seemed like that was related to the transparency of the 
operations that are on-going.
    Mr. Cuffari. Yes, sir.
    So that--in 2019--I believe it was November, maybe December 
2019, we published the report basically looking at the 
technology that was available to DHS at that time, whether they 
were using it effectively to track and to merge--to track 
family units and to merge family units with their minor 
children. This is an expansion of that now, with the new surge 
at the border. In the last iteration we worked with HHS. In 
this particular case HHS is going to ask us to do that with 
their facilitation.
    This is like an interoperability of systems between DHS and 
Health and Human Services. It is the Office of the Refugee 
Resettlement.
    Mr. Pfluger. Well, that is great and I will be very 
interested in reading that. We have a facility in Midland, 
Texas.
    Mr. Cuffari. Yes, sir.
    Mr. Pfluger. We have sent multiple requests, multiple 
written requests and verbal requests and haven't received any 
response yet on how long the facility will be there, who is 
going to be put in the facility, whether or not they have 
COVID, how the Office of Refugee Resettlement is actually 
working to get them to the right place. Very simple things, up 
to and including the allegation of a sexual assault that 
occurred there that we still can't get any answers on.
    So very interested in that result.
    I also want to go to the role that the IG plays in ensuring 
that our Customs and Border Protection agents have the right 
resources, training, and equipment to do their job on the 
border. Can anyone please comment on that and whether or not 
that is being looked at in the mechanism of which we are 
grading ourselves on that?
    Mr. Cuffari. Mr. Currie, would you like to do that?
    Mr. Currie. I think he was asking about the IG's role on 
that.
    Mr. Cuffari. OK. So one of the--Congressman Pfluger, one of 
the things that we are going to be looking at is during our 
discussions down on the border, the subject-matter experts down 
there told us that they are having a very difficult time 
backfilling existing vacancies. They were able to draw people 
from other out stations to come to the Southwest Border or to 
go to the Southwest Border. The problem is their throughput is 
a hang-up at FLETC. So because of the outbreak at FLETC, the 
training facility in Brunswick, Georgia, they are unable to 
rapidly keep pace with the vacancy rate and fill those 
vacancies.
    So we are doing a virtual--we are doing a review right now 
of FLETC's ability, the effectiveness of them conducting 
virtual training to speed up sort-of their training 
qualifications.
    Mr. Pfluger. Let me reclaim just a little of time and 
expand on that question. Multiple Border Patrol agents have 
specifically told me that they are not getting the right 
resources, or they are seeing something in the case of 
``gotaways'', hundreds if not thousands that are happening 
across the Southern Border right now. Are they being heard? Is 
their voice being heard? If not, how can the IG help to ensure 
an immediate course correction to get them the resources, 
training, and personnel to secure the Southern Border?
    Mr. Cuffari. Well, we are--I am poised to have a meeting 
with the Secretary in a few days and with the deputy secretary 
to discuss my observations at the border. I am sure we are 
going to have a very good discussion. We have already met 
twice. He has been very receptive to our inputs, but ultimately 
that is for the Secretary to make a decision.
    Mr. Pfluger. Well, the fact is that there are folks that 
have come across on the terror watch list, and that is being 
communicated by, you know, mid-level Border Patrol agents to 
Members of Congress. We see that statement then redacted. I am 
worried about the fact that there is a censoring of 
information. So this the IG's role, to make sure that anyone in 
the organization has a voice and has the psychological safety 
to communicate to the leadership what the issues are.
    So this needs to have----
    Chairman Thompson. The gentleman's time from Texas has 
expired.
    Mr. Pfluger. Thank you, Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentlelady from 
California for 5 minutes, Ms. Barragan.
    Ms. Barragan. Thank you, Mr. Chairman.
    Mr. Cuffari, in December 2019 your office released its 
findings following an investigation into the death of 2 
children in CBP custody in December 2018.
    I am troubled that investigators neglected to even attempt 
to speak with medical professionals that treated one of the 
children. Your final public reports were merely 2-page 
summaries of the deaths that cleared Border Patrol personnel of 
any wrongdoing, yet failed to look at any systematic issues 
that might have led to the children's deaths.
    One of these summaries includes inaccurate information on 
one child's diagnosis, which had to be corrected following a 
letter sent by this committee.
    At the committee's July 2020 hearing on the death of 
children in CBP custody you committed to providing the 
committee with a report detailing broader recommendations about 
the care of children in CBP custody by the end of the year. To 
my knowledge no such report has been issued.
    What is the delay and when will we see the report?
    Mr. Cuffari. No delay, ma'am. Actually we have a draft 
report that is being reviewed. I am told by my team that this 
report should be done at the Department. It is being--looked at 
CBP's procedures for providing medical care, quality of medical 
care to detained migrants. We should have that out by the 
summer. We are using the resources of our medical contract 
professionals that you provided to us.
    Ms. Barragan. OK. Mr. Cuffari, your reports on the 2 
children, Jakelin and Felipe, it took about a year. A third 
child's death in custody occurred in May 2019. In our July 2020 
hearing you testified that the investigation into the deaths 
was near completion. It has been 9 months since you made that 
statement and nearly 2 years since the child died and there is 
still no report.
    I understand it is being reviewed, but Congress really 
needs to be able to see this report and to do it publicly. 
These are things that we learn from. Do you have an estimation 
of how much longer this report will take?
    Mr. Cuffari. Ma'am, the 2 reports were published in 
December--I think in December 2019. I testified about those 2 
closed reports in July 2020. The report I am mentioning----
    Ms. Barragan. Correct. They were----
    Mr. Cuffari [continuing]. Goes to your--it goes to your 
broader question about the handling and the quality of medical 
care that is being provided by CBP.
    Ms. Barragan. OK. Do you--have you put a report out about 
the third death?
    Mr. Cuffari. The third death----
    Ms. Barragan. In May--the one of May--May 2019. His name 
was Carlos from Guatemala.
    Mr. Cuffari. There is no--we don't release investigative 
reports, we release the investigative summaries, which they are 
part of the documents that you just referenced for the 2 
previous death cases. We will do so in accordance with our 
agreement with the Chairman.
    I committed in July to publishing all deaths in custody by 
summary.
    Ms. Barragan. OK.
    Mr. Cuffari. Hello?
    Chairman Thompson. Well, I thank the gentlelady for her 
questions.
    Ms. Barragan. Yes----
    Chairman Thompson. Since Mr. Cuffari referenced the Chair I 
will make----
    Ms. Barragan [continuing]. Making sure we--what is 
happening.
    Chairman Thompson. Yes. Can you hear me now?
    Mr. Cuffari. I can hear you, Chairman, sir.
    Chairman Thompson. Well, I think Ms. Barragan is having 
trouble.
    Ms. Barragan. Yes.
    Chairman Thompson. We are going to go to Mr. Gottheimer for 
5 minutes until we can get the gentlelady from California's 
signal back.
    Mr. Malinowski, are you there?
    Well, looks like we are having some technical difficulties. 
I hope we can correct them.
    But let me thank our witnesses again then call some folks. 
I was trying to get us through this area.
    But, however, based on the findings GAO concludes that the 
work required to address the weaknesses is substantial and 
extends across organizations. The work amounts to a 
transformation of the organization's management and operations. 
Such transformation can be a difficult complex endeavor.
    IG Cuffari has significant work ahead of him. Based on what 
I have observed and heard today, I have yet to be convinced 
that he is up to the task at hand. His reorganization announced 
on the same day as GAO's draft report strikes me as the 
shuffling of the deck chairs rather than something that was 
will resolve the challenges. As Mr. Currie noted, it would keep 
some of the very same problems GAO identified.
    This hearing is a beginning of the committee's engagement 
with the OIG on these issues. Accordingly, the committee will 
be monitoring your implementation of GAO's recommendations to 
date.
    Now, Mr. Malinowski, we saw you, but I will yield to the 
gentleman from New York, Mr. Torres, if he has a question.
    Mr. Torres [presiding]. Thank you, Mr. Chair.
    The GAO and Homeland Security Committee have raised serious 
questions about the integrity, independence, accountability, 
transparency, and efficacy of the DHS Office of Inspector 
General. I see the report as a comprehensive indictment of the 
office.
    The report essentially portrays the OIG as a sinking ship 
and it accuses the inspector general of constantly rearranging 
the decks of his organization without any semblance of 
strategic planning.
    My first question is about independence. The Homeland 
Security Committee received an email from a whistleblower who 
accused you, inspector general, of mishandling the ``I'm 10-
15'' Facebook group. The email claims that you were concerned 
about ``demands that an interview would impose on senior DHS 
leadership.'' Is that whistleblower claim true, yes or no?
    Mr. Cuffari. Mr. Torres, great visiting with you again.
    The answer is no.
    Mr. Torres. OK. The email also claims that you advise your 
inspectors to ``avoid any questions already publicly commented 
on by those leaders.'' Is that claim true or false?
    Mr. Cuffari. Incorrect.
    Mr. Torres. OK. In August 2020 the GAO issued a report 
finding that Acting Secretary Wolf and Acting Deputy Cuccinelli 
were improperly serving in their roles. The GAO referred the 
matter to the IG. You declined the referral, correct?
    Mr. Cuffari. I reviewed the referral and declined to take a 
position.
    Mr. Torres. For what it is worth, for me it is inexplicable 
that the OIG would decline a referral regarding the improper 
exercise of power at the highest echelons at DHS. If the OIG is 
not willing to investigate the abuse of power at the highest 
levels of DHS, then what is the inspector general for?
    Is it true that you and your office said that you would 
discuss the GAO referral and a potential investigation with 
Chad Wolf?
    Mr. Cuffari. No.
    Mr. Torres. OK.
    In your confirmation hearing Senator Rosen asked you what 
you would do in the event of a whistleblower retaliation. You 
testified under oath that you would conduct an investigation 
evaluating all the facts and make a recommendation. The word 
``recommendation'' is the operative phrase here.
    Despite promising to make recommendations during your 
confirmation hearing, you proceeded to announce in the summer 
of 2020 that you would no longer make recommendations, thereby 
breaking your promise.
    If your office found evidence of retaliation against a 
whistleblower but fails to recommend reinstatement, do you 
think that DHS is more likely or less likely to reinstate a 
wrongfully fired whistleblower in the absence of an OIG 
recommendation?
    Mr. Cuffari. Just for the record, I did as you suggested 
make that comment to Senator Rosen. I was basing that comment 
on my previous work with other IGs. I determined that that 
the--upon review once I got here, the inspector general hat 
actually does not require making the recommendation----
    Mr. Torres. I am not asking about requirement, I am just 
asking if you fail to make a recommendation, if you fail to 
recommend reinstatement, is DHS more likely or less likely to 
reinstate a wrongfully fired whistelblower? I am asking about 
probability.
    Mr. Cuffari. I can't comment on probability, sir.
    Mr. Torres. OK. I mean I can--I think common sense dictates 
that DHS is more likely to reinstate if it is recommended 
explicitly by the inspector general.
    According to the former director of the Whistleblower 
Protection Unit, Brian Volsky, an employee of yours, claims 
that you essentially--your office essentially disclosed the 
identity of a whistleblower to the commandant and vice 
commandant of the U.S. Coastal Guard. Is it true that your 
chief of staff gave the commandant and the vice commandant a 
heads-up about the investigation?
    Mr. Cuffari. I don't--I don't know if that occurred, sir.
    Mr. Torres. Is it true that the vice commandant thanked 
your chief of staff for providing enough information to make 
the whistleblower identifiable?
    Mr. Cuffari. I actually don't know.
    Mr. Torres. Can you provide us with a response in writing?
    Mr. Cuffari. Yes, sir.
    Mr. Torres. But you would agree that if the confidentiality 
of a whistleblower were compromised that that is the kind of 
breach of trust that would inflict irreparable damage to the 
integrity of an inspector general? Would you agree with that 
assessment?
    Mr. Cuffari. I agree to protect whistleblowers' identity, 
yes.
    Mr. Torres. Then, finally, during your confirmation 
hearing, you promised to ensure that the Whistleblower 
Protection Unit would be robustly staffed. But according to 
your former director of the Whistleblower Protection Unit, you 
left the Unit understaffed.
    In December 2019 Mr. Volsky drafted a memo sounding the 
alarm about ``mission failure'' at the Whistleblower Protection 
Unit. Is it true that in response to that warning of mission 
failure you waited 4 months before hiring only 1 staffer? Is 
that true?
    Mr. Cuffari. It is true that we were in a budget deficit 
and until I received budget allocations--I think we were in a 
Continuing Resolution, did not have vacancies available to 
fill, money to fill vacancies. Once we got a full funding, as 
Mr. Volsky knows, we moved the Whistleblower Protection Unit 
from our Office of Special Review back to the Office of 
Counsel, where it belongs. We detailed and hired now up to 8 
attorneys or staff in that office.
    Mr. Torres. I see my time has expired and--all right. I 
thank the witnesses for the testimony and the Members for their 
questions.
    The Members of the committee may have additional questions 
for the witnesses and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    Thank you.
    Mr. Cuffari. Thank you, Mr. Torres. Take care. Have a good 
rest of the day, everyone.
    [Whereupon, at 4 p.m., the committee was adjourned.]

                            A P P E N D I X

                              ----------                              

     Questions From Ranking Member John Katko for Joseph V. Cuffari
    Question 1a. What are the specific steps the IG is taking to 
improve the audit quality guidance and processes that led to the 
complete redaction of 13 reports on FEMA?
    Question 1b. Has the OIG fully implemented the recommendations from 
the internal review of the 13 FEMA reports (OIG-19-41), and if not, why 
not?
    Answer. In 2017 and 2018, the Department of Homeland Security (DHS) 
Office of Inspector General (OIG) retracted 13 Emergency Management 
Oversight Team (EMOT) reports that evaluated the Federal Emergency 
Management Agency's initial response to declared disasters. DHS OIG 
leaders determined that the reports may not have adequately answered 
objectives and, in some cases, may have lacked sufficient and 
appropriate evidence to support conclusions. Since that time, DHS OIG 
has implemented various corrective actions. We have revised Office of 
Audits (OA) policies and procedures, established a Quality Management 
and Training Branch (QMT) within OA, revised our audit manual, 
developed job aids regarding audit planning, and conducted various 
auditor training regarding the planning and indexing and referencing 
processes to improve audit quality.
    In March 2018, the former Acting Inspector General also initiated 
an internal root cause review of the deficiencies identified in the 
EMOT reports, recusing himself and delegating authority to the then-
Acting Counsel. The root cause review resulted in a May 2019 report, 
Review Regarding DHS OIG's Retraction of Thirteen Reports Evaluating 
FEMA's Initial Response to Disasters (OIG-19-41), containing 5 
recommendations. All recommendations in OIG-19-41 were fully 
implemented.
    In addition, in August 2018, Environmental Protection Agency OIG 
completed an external peer review of DHS OIG's audit operations for the 
fiscal year ending September 30, 2017. As part of this peer review, EPA 
OIG evaluated 1 of the 13 retracted EMOT reports and found that the 
audit did not comply with generally accepted Government auditing 
standards (GAGAS) and DHS OIG policies and procedures. Audit 
organizations can receive a rating of pass, pass with deficiencies, or 
fail in an external peer review. In the August 2018 review, DHS OIG 
received a rating of pass with deficiencies. EPA OIG made 4 
recommendations aimed at addressing the deficiencies identified in the 
EMOT reports. All recommendations from the EPA OIG peer review are also 
resolved and closed.
    In March 2021, Department of Education OIG completed an external 
peer review for DHS OIG's audit operations for the fiscal year ending 
September 30, 2020. On this peer review, DHS OIG received a rating of 
pass. In the last year we have received ``pass'' ratings in our 
investigative and inspections peer reviews as well.
    Question 2. To what extent has the DHS OIG audit teams' guidance 
and processes been updated to align with internal controls, generally 
accepted Government auditing standards, and other Federal standards? 
Please be specific, with documents and time frames.
    Answer. On November 14, 2019, DHS OIG Office of Audits (OA) 
distributed its updated audit manual (November 1, 2019) to all OA 
employees. Subsequently, the manual was updated again with minor 
clarifications on March 11, 2020. OA provided training to all staff on 
the revised audit manual, as well as the 2018 update of the Government 
auditing standards (the Yellow Book), risk assessment, and fraud 
assessment. OA supplemented the manual with job aids, training, and 
other materials.
    For example, the following job aids and checklists were developed 
and shared with all OA employees:
  <bullet> Developing the Audit Time Line (updated April 2020)
  <bullet> Endnotes (December 2019)
  <bullet> Assessing Data Reliability (March 2020)
  <bullet> Assessing Fraud Risk (updated June 2020)
  <bullet> Fieldwork Checklist (April 2020)
  <bullet> Design Matrix (updated April 2020)
  <bullet> Team Competency (March 2020)
  <bullet> Potential Independence Impairments (May 2020)
  <bullet> Planning and Survey Checklist (updated June 2020)
  <bullet> Indexing and Referencing Requirements & Best Practices (June 
        2020)
  <bullet> Reporting Checklist (June 2020).
    Between October 2018 and June 2019, OA staff received training on 
audit planning (stressing assessment of audit risk and fraud, internal 
controls, and developing objectives and the audit program), the 
assessment of evidence, and indexing and referencing at monthly ``All 
Hands'' meetings. OA staff provided 4 additional training sessions on 
internal controls to OA employees between March and May 2021.
    All updates, job aids, and training materials are shared with all 
OA employees on an internal intranet site and communicated to all OA 
employees.
    Finally, as mentioned in response to question 1, the Department of 
Education (DOE) OIG conducted a peer review of the DHS OIG Office of 
Audits from October 2020 through March 2021, covering the fiscal year 
ending September 30, 2020. Specifically, DOE OIG reviewed the system of 
quality control for DHS OIG's audit organization. A system of quality 
control encompasses DHS OIG's organizational structure and the policies 
adopted and procedures established to provide it with reasonable 
assurance of conforming in all material respects with Government 
Auditing Standards and applicable legal and regulatory requirements. In 
its Systems Review Report, dated March 31, 2021, DOE concluded the 
system of quality control for the audit organization of DHS OIG in 
effect for the year ended September 30, 2020, has been suitably 
designed and complied with to provide DHS OIG with reasonable assurance 
of performing and reporting in conformity with applicable professional 
standards and applicable legal and regulatory requirements in all 
material respects. Accordingly, we received a rating of pass.
    Question 3. Dr. Cuffari, in light of the indictments a former 
acting DHS IG and a subordinate for their alleged theft of proprietary 
software and confidential databases contain personally identifying 
information (PII) from the U.S. Government, what are you doing to 
prevent fraud, waste, and abuse in the OIG going forward?
    Answer. Since my confirmation as inspector general, I have strived 
to create a culture of integrity, starting with the tone at the top of 
the organization. Fraud, misconduct, and abuse within DHS OIG will not 
be tolerated. We are also constantly striving to be an efficient 
organization, providing an excellent value to the taxpayer. For fiscal 
year 2020, our return on investment was nearly 40:1--in other words, 
for every $1 invested in DHS OIG by Congress, we identified $39.97 in 
questioned costs, funds put to better use, fines, restitutions, and 
recoveries.
    When the Enforcement Data System (EDS) Major Incident occurred in 
2017, prior to my tenure as IG, OIG pursued a number of short- and 
long-term corrective actions, which were fully implemented. DHS OIG 
immediately locked down access to the system and contracted with an 
independent company to perform a 360-degree security review of the case 
management system as well as the underlying development process. 
Subsequently, the development and deployment processes were changed to 
provide additional governance, oversight, internal controls, and 
security features. We also hired an additional cyber contractor to 
serve as an Information System Security Officer (ISSO).
    Finally, OIG employees must meet annual, mandatory requirements for 
IT Security Awareness Training, Insider Threat Training, and Ethics 
Training for Supervisors.
                           gao report on oig
    Question 4a. Strategic planning is an inherently Governmental 
function that ought to be performed by Federal employees; you have 
contracted with the National Academy of Public Administration (NAPA) 
for the creation of the next DHS OIG strategic plan. Why did DHS OIG 
opt to pursue a contract for this important function?
    Question 4b. How will you ensure that DHS OIG is better-positioned 
to develop its next strategic plan in-house?
    Answer. Recognizing the importance of an aggressive but attainable 
plan for our future, in August 2020, we contracted with the 
Congressionally-chartered non-partisan, non-profit National Academy of 
Public Administration (NAPA) to assist us in developing a 5-year 
strategic plan. We awarded this contract because it is the right way to 
bring about real change and a Congressionally-endorsed model practice 
in the Federal Government. NAPA is assisting us, as they have assisted 
many other Federal agencies, in our strategic planning efforts, not 
developing our plan outright. The assistance that NAPA is providing is 
not an inherently Governmental function, defined in statute as ``a 
function so intimately related to the public interest as to require 
performance by Federal Government employees.'' Further, Office of 
Management & Budget Policy Letter 2011-23165, which provides detailed 
guidance on inherently Governmental functions, does not indicate that a 
Federal agency is precluded from seeking contractor assistance in 
developing strategic plan. With NAPA's assistance, we will adopt a 
strategic plan covering fiscal years 2021 through 2025 later this 
summer. At this point in time, we are unsure what approach we will take 
to develop our 2026 through 2030 strategic plan, but whether it is 
developed in-house or with assistance from NAPA, employees in our 
newly-created Office of Innovation will play an important role.
    Question 5a. There are several other governance documents that 
derive from a strategic plan.
    Does the contract with NAPA include support for developing those 
additional documents, and if not, what plans does DHS OIG have to 
ensure that governance framework is appropriately developed and in 
place as soon as possible?
    Question 5b. What are the immediate next steps that follow receipt 
of the strategic plan and what plans and time frames do you have for 
these next steps?
    Answer. Under NAPA's Statement of Work, their first task is to 
assist OIG with development of a revised Strategic Plan. The Strategic 
Plan will include goals, objectives, performance indicators, measures, 
and strategies. We expect the plan to be completed by the end of June 
2021. Once finalized, these goals, objectives, and measures will form 
the basis for guiding fiscal year 2022 executive performance plans and, 
in turn, cascade throughout the organization through the normal 
performance management cycle.
    Question 6a. The issues that GAO has identified span many offices 
at the OIG. Conceivably, almost everyone in the OIG will have a role in 
addressing these challenges, and it should not just be a top-down 
effort.
    How do you plan to support and develop the leaders of each office 
to be able to effectively address these challenges?
    Question 6b. How will you ensure effective communication and 
collaboration with employees throughout these changes?
    Question 6c. GAO's report describes staff-led efforts to address 
DHS OIG weaknesses in a variety of areas. In some cases, these efforts 
didn't materialize because they were overlooked or otherwise didn't 
have leadership commitment. How do you plan to leverage the skills and 
expertise of staff who have been proposing solutions to these problems 
over the years?
    Answer. Since my confirmation in July 2019, I have been focused on 
creating a workplace where all employees are valued and have a voice. I 
have built a strong track record of communicating with DHS OIG 
employees. For example, I send weekly and ad hoc messages to all OIG 
staff with updates from senior leadership and highlights of noteworthy 
accomplishments. I also conducted more than 60 small group meetings 
with DHS OIG employees, typically involving 10-15 employees at a time 
who were invited to send questions in advance or ask them in an open 
forum. I hold semi-annual townhalls with all OIG employees. We also 
established an Employee Advisory Council that serves as a forum of 
communication between OIG employees and leadership.
    I empowered DHS OIG's senior executives to create individual 
initiatives in each program office to facilitate employee 
communication, feedback, and employee-driven process improvements for 
how we do our work. For example, staff in the Office of Inspections and 
Evaluations initiated enhanced training and on-boarding for new 
employees including an introduction to planning, quality assurance 
procedures, and CIGIE standards for Inspections and Evaluations.
    Question 7a. In recent weeks, you decided to implement more agency-
wide changes that will affect the structure and function of numerous 
offices at the OIG.
    When will these changes go into effect, and how did you engage with 
OIG employees as you determined what changes to make?
    Question 7b. To what extent have your plans for these changes 
detailed roles and responsibilities of each office and identified the 
resources needed?
    Question 7c. What are you doing to make sure that these changes 
will be implemented more effectively than changes in the past?
    Answer. In March 2021, I directed a realignment of OIG functions 
and program offices to facilitate maximum efficiency and effectiveness 
in conducting the OIG's mission. The realignment began to take effect 
April 12, when I made an announcement to all staff explaining the 
purpose of and expectations for the changes. While some changes 
occurred quickly, certain documentation to appropriately record 
personnel movements, and key updates to systems of record used to 
support the workforce--such as financial management systems and time 
and attendance records--may take up to 120 days to be fully 
implemented.
    To implement the changes effectively, OIG leadership adhered to 
GAO's key practices for organizational transformation to the maximum 
extent possible, by:
  <bullet> Exercising a communications strategy, which involved meeting 
        with staff from all affected organizational units to address 
        their questions and developing enterprise-wide messaging.
  <bullet> Exhibiting commitment from top leadership, including a video 
        from the IG describing the changes to the workforce.
  <bullet> Establishing an implementation team, led by human resources 
        professionals, to oversee the tasks required to smoothly carry 
        out the reorganization.
  <bullet> Thoroughly documenting goals, priorities, and implementation 
        time lines, as described below.
    The roles and responsibilities for the realigned offices were laid 
out in a management memorandum. The realignment plan established the 
Office of Innovation (OIN), which develops new and innovative 
approaches to achieve the OIG's strategic direction and improve 
performance of the mission. The primary focus of this office is to 
plan, communicate, implement, and lead change across the organization, 
with a focus on modernizing the agency's enterprise business 
information systems, and advancing the agency's data analytics program. 
The intended outcome for this new program office is to enable the OIG 
to effectively and efficiently achieve its expanding mission 
requirements and implement the required changes for increased 
productivity.
    The realignment plan also established a new Office of Integrity 
(OI). OI establishes a program responsible for upholding the agency's 
professional standards through a multidisciplinary approach of 
inspections and investigations. OI promotes organizational integrity by 
conducting independent reviews of agency programs and operations, and 
impartially investigating allegations of serious employee and 
contractor misconduct. OI will provide agency senior leadership with an 
independent assessment of programmatic compliance with requirements of 
agency policies, procedures, and standards.
    The plan realigned functions of the chief data officer and data 
analytics program to the Office of Innovation (OIN). The OIN Data 
Analytics Division will focus on assisting the entire enterprise to 
leverage data and incorporate data analytics in all aspects of DHS 
OIG's mission. The division will provide support with respect to data 
analysis and visualization for more effective reporting. The division 
will leverage project-tracking data to provide operational 
effectiveness insights to OIG mission support functions in the 
organization, as well as to inform narratives with external 
stakeholders about the OIG's work. The division will conduct audits to 
assess the quality of the data DHS uses for essential mission 
operations and maintains the OIG data analytics infrastructure and 
deploy advanced analytic capabilities to explore, acquire, and assess 
the quality of DHS data.
    Question 8. The Office of Integrity and Quality Oversight plays an 
important role in organization-wide quality assurance, yet this office 
is the subject of some significant changes the OIG has planned. How do 
you plan to structure and resource quality assurance efforts in the new 
organizational structure?
    Answer. Quality assurance is an office-wide responsibility that 
does not just reside in one DHS OIG division. We take the fact that we 
recently passed 3 separate peer reviews (audit, inspection, 
investigative) in the last 12 months to indicate that our quality 
assurance program is operating effectively. We fully anticipate that 
our new Office of Integrity will continue to strengthen our quality 
assurance efforts through improved documentation, additional resources, 
and targeted expertise.
    That said, the Office of Integrity is well-positioned to monitor 
the quality of DHS OIG performance and products. Now that we have 
integrated all internal-oriented functions within one office, we expect 
increased synergy between these functions.
    Question 9a. GAO identified numerous concerns about quality 
assurance and professional standards.
    How are you ensuring that your quality assurance function is 
appropriately staffed and trained?
    Question 9b. How do you ensure that program offices are responsive 
to the OIG's quality assurance program?
    Question 9c. How are you ensuring that all the OIG's work is 
subject to quality assurance reviews?
    Answer. We take the fact that we recently passed 3 separate peer 
reviews (audit, inspection, investigative) in the last 12 months to 
indicate that our quality assurance program is operating effectively. 
DHS OIG's principal quality assurance function is positioned to 
proactively monitor and address quality, including the application of 
professional standards. This function, housed in the Office of 
Integrity, employs well-trained compliance and assurance experts who 
monitor DHS OIG products and performance in a data-driven, risk-based 
manner. They work in frequent communication with DHS OIG senior 
leadership to implement enhancements throughout the organization. These 
activities--paired with other program office quality control activities 
(such as supervisory reviews, fact/figure checking, independent 
referencing, and the like)--help ensure the consistent reliability and 
effectiveness of DHS OIG's work.
    While these activities in the Office of Integrity are at the ``tip 
of the spear,'' as mentioned in response to question 8, quality 
assurance is an office-wide responsibility that does not reside in just 
one DHS OIG division. For example, in October 2018, the Office of 
Audits (OA) established the Quality Management and Training Branch 
(QMT). QMT develops quality control guidance and procedures to 
complement GAGAS and OIG policy for OA. It also identifies strategies 
to improve product quality and maintain a skilled workforce. QMT's 
Audit Policy and Compliance Unit conducts In-Process Quality Reviews 
(IPQRs) of on-going audits and reviews to determine whether corrective 
actions are needed to comply with GAS requirements.
    Regarding training, QMT's Audit Training and Tracking Unit tracks 
and supports OA staff training activities. The unit manages OA's in-
house training program, including developing a training calendar, 
scheduling classes, registering students, assigning instructors, and/or 
designing and facilitating classes. The unit communicates with the 
Office of Management's Training and Workforce Development Division to 
identify training opportunities. It also communicates with the Council 
of the Inspectors General on Integrity and Efficiency (CIGIE) and other 
outside training agencies and vendors to identify training 
opportunities that will benefit the organization. QMT communicates 
these training opportunities to OA staff and other OIG program units 
through email announcements and/or blog posts.
    Likewise, in the Office of Inspections and Evaluations, staff 
received training on inspection planning and internal controls 
including project proposals, report indexing, report referencing and 
external peer reviews through our annual training program. Training 
regarding planning and quality assurance is also being incorporated 
into our new employee on-boarding training beginning in May 2021.
    Inspections and Evaluations reports go through a rigorous quality 
assurance process which includes:
  <bullet> Supervisory Review (which ensures the project supervisors 
        review documentation and analysis that is used to develop 
        Inspection reports);
  <bullet> Report Indexing (which outlines the support for all findings 
        included in an Inspections report);
  <bullet> Report Referencing (which ensures another qualified 
        inspector who did not perform the inspection work on the 
        project reviews the support provided and can draw the same 
        conclusion); and
  <bullet> Senior Management Review (which includes a review by the 
        Office of General Counsel, Reports Quality Assurance, Deputy 
        Inspector General for Inspections and Evaluations, Chief of 
        Staff, Principal Deputy Inspector General and the Inspector 
        General).
    The DHS OIG received, and passed, its first peer review of its 
Inspections and Evaluations work from June to September 2020. The CIGIE 
External Peer Review Team consisted of experienced Office of Inspector 
General inspection and evaluation professionals from the Department of 
Defense, the Department of Energy, the Department of State, and the 
Department of Veterans Affairs. The review team conducted an external 
peer review of 2 offices within the Department of Homeland Security 
OIG--the Office of Audits and the Office of Inspections and 
Evaluations.
    The review team assessed the extent to which the DHS OIG met 7 
quality standards as required by the CIGIE Quality Standards for 
Inspection and Evaluation (Blue Book), January 2012. These included: 
Quality control, planning, data collections and analysis, evidence, 
records maintenance, reporting, and follow-up. This assessment included 
a review of DHS OIG's internal policies and procedures implementing the 
7 required Blue Book standards. The assessment also included a review 
of 4 selected inspection and evaluation reports issued between July 1, 
2019, and June 30, 2020, to determine whether the reports complied with 
the covered Blue Book standards and DHS OIG's internal policies and 
procedures.
    The peer review team determined that DHS OIG's internal policies 
and procedures generally met the 7 covered Blue Book standards 
addressed in the external peer review, and the 4 reviewed reports 
generally met the Blue Book standards and complied with DHS OIG's 
internal policies and procedures. There were no recommendations 
associated with this external peer review.
    Question 10a. GAO's analysis shows that reports are taking longer 
to produce. GAO has found that DHS OIG has not conducted a 
comprehensive assessment of time frames.
    Although you may not have a comprehensive assessment at this time, 
what do you see as the factors contributing to report time frames?
    Question 10b. GAO's analysis includes work that began before you 
began your tenure at the OIG. What steps are you taking to ensure the 
timeliness of work that is currently under way?
    Answer. We published 80 reports in fiscal year 2020, which is 13 
more than we did in fiscal year 2019. Many factors go into the amount 
of time that it takes reports to get finalized, and the time frames can 
vary greatly depending on the circumstances of a particular audit or 
inspection. Office of Integrity reviews often include assessing 
timeliness as part of its quality assurance efforts.
    Recently, the Office of Inspections and Evaluations established new 
benchmarks and tracking to ensure projects are done effectively and 
efficiently. Both project supervisors and project staff have visibility 
of the project tracking to ensure projects are completed in a timely 
manner. Each project plan establishes a time line based on the scope of 
the project, to determine the appropriate time frame for completion. If 
projects are going to extend beyond established time frames, project 
supervisors would document these extensions including the rationale and 
approval for an extension. The Office of Audits will be following suit. 
Empowered with new initiatives in benchmarking, metrics, and milestone 
tracking, DHS OIG will be increasingly positioned to monitor timeliness 
and apply these means to maximize our efficiency.
    Finally, we will be updating our report review directive, including 
reviewer roles, responsibilities, and time frames, for draft and final 
report reviews. We will also develop and implement a process to ensure 
that we consistently use data to track project milestones.
               independent investigation into misconduct
    Question 11a. Dr. Cuffari, please explain how the process to select 
Wilmer Cutler Pickering Hale & Dorr LLP (Wilmer Hale) to investigate 
misconduct by 3 Senior Executive Service employees was conducted.
    Question 11b. How many firms submitted proposals to conduct this 
investigation?
    Question 11c. What selection criteria did you, or others in the 
OIG, use to select the recipient?
    Answer. On April 7, 2020, DHS OIG sent a Request for Proposal (RFP) 
utilizing specific Federal Acquisition Regulations (FAR) Part 13.5 
procedures to 4 vendors: WilmerHale, Baker Hostetler, Davis Polk, and 
Global Security Innovative Strategies. The competitive solicitation 
informed the recipients that the procurement would be conducted using a 
Phased Approach. Phase One consisted of interested parties returning 
the DHS OIG non-disclosure agreement and registering in the General 
Services Administration System for Award Management. Failure to 
participate in Phase One of the solicitation precluded any further 
consideration of an Offeror. Phase Two required submission of: (1) 
Capabilities of Proposed Personnel; (2) Demonstrated Prior Experience 
and Past Performance Reference Checks; and (3) Price. WilmerHale and 
DavisPolk submitted proposals, and the solicitation closed on April 17, 
2020.
    A Technical Evaluation Team (TET) assessed and rated the proposals 
in accordance with the solicitation. On April 27, 2020, the TET reached 
a consensus rating and recommendation. On April 29, 2020, the 
contracting officer determined that WilmerHale presented the lowest 
price and offered the best value to the Government. The contracting 
officer awarded Contract no. 70VT1520C00003 to WilmerHale (Wilmer 
Cutler Pickering Hale and Dorr LLP) on May 4, 2020.
    I did not review the proposals, I was not part of the TET, I had no 
involvement in the TET's deliberations, I have no financial interest in 
or personal connection to WilmerHale, and I had no communication with 
the Contracting Officer about the proposals either before or after the 
award.
    Question 12a. Dr. Cuffari, what steps did Wilmer Hale take to 
ensure that the investigation into allegations of misconduct would be 
independent?
    Question 12b. To what extent were you involved in selecting the 
firm, or guiding its work, if at all?
    Answer. As mentioned in response to question 11, I was not at all 
involved in the process for selecting WilmerHale. I was also not 
involved in guiding the work of the firm. WilmerHale personnel carried 
out their work under the supervision of a senior partner in that firm, 
Ronald Machen, who served as U.S. Attorney for the District of Columbia 
under President Obama. WilmerHale decided who would be interviewed, 
what documents and other evidence it needed, how the final report would 
be organized, and most importantly, what the final report said. I did 
not engage an outside firm with a particular outcome in mind, nor did I 
or anyone at DHS OIG telegraph a particular outcome to WilmerHale.
    Question 13. Dr. Cuffari, based on the findings of the Wilmer Hale 
investigation into allegations of misconduct by 3 Senior Executive 
Service officials at the DHS OIG, what are you doing to ensure similar 
behaviors and allegations are avoided in the future?
    Answer. WilmerHale found that 3 senior executives at DHS OIG 
committed serious misconduct over a sustained period. The 3 senior 
executives are no longer employed at DHS OIG. I have worked very 
deliberately to build an executive team that models the highest 
standards of honesty and integrity in all actions, as do I. I have 
strived to create a culture of integrity, starting with the tone at the 
top of the organization. I have also created a culture at DHS OIG of 
``see something, say something,'' encouraging employees to come forward 
with concerns.
    I have created a new division of DHS OIG, the Office of Integrity, 
the function of which is to standardize the treatment of internal 
complaints and the conduct of internal investigations (which had been 
weaponized by the 3 senior executives against employees who complained 
about their bad acts). I have instituted regular management training on 
topics such as the Merit System Principles; Prohibited Personnel 
Practices; performance management; and whistleblower protections. I 
have held dozens of small-group meetings in which I broadcast my vision 
for DHS OIG and field questions from DHS OIG employees. Now that 
pandemic conditions have improved, I resumed in-person visits to DHS 
OIG field offices.
    The committee should be aware, however, that 3 weeks after my April 
21, 2021 testimony, the Integrity Committee of the Council of 
Inspectors General for Integrity and Efficiency (CIGIE IC) notified me 
that it is investigating whether I authorized the WilmerHale 
investigation in ``retaliation'' for unspecified protected activity of 
unspecified persons. I have never heard anyone dispute the findings 
that WilmerHale made after a comprehensive independent investigation 
carried out according to the highest standards. Yet, the CIGIE IC is 
trying to erase the historical record compiled by WilmerHale. It is not 
for me to say why the CIGIE IC is attempting to undermine my attempts 
to clean up DHS OIG, which I promised to do during my 2019 confirmation 
process, but make no mistake--that is what is happening. The CIGIE IC 
investigation is sending exactly the wrong message. Namely, that the 3 
senior executives who WilmerHale found to have ``often planted and then 
cultivated seeds of divisiveness, disorder, and dissension to the 
detriment of DHS OIG and its mission'' are actually victims. I 
disagree, and instead believe that it was the DHS OIG workforce, DHS 
OIG stakeholders, and ultimately, the American public, who were the 
victims of the 3 senior executives' serious misdeeds. Sweeping 
WilmerHale's findings under the rug, as the CIGIE IC is attempting to 
do, will destroy DHS OIG.
    Question 14. We and other Congressional committees have received 
complaints from staff about favoritism at DHS OIG. We understand that 
there were concerns about favoritism in connection with the leaders who 
were the subject of an investigation, but not all the complaints we've 
received have been connected to those individuals. How do you plan to 
ensure equitable treatment of employees, particularly as it relates to 
promotions and performance appraisals?
    Answer. DHS OIG takes seriously its obligations to uphold the Merit 
System Principles and to prevent Prohibited Personnel Practices. Within 
the past year, every supervisory employee and senior executive has 
undergone comprehensive, live training on both topics with in-house 
experts. In addition, senior executives participated in mandatory, live 
training to underscore some of these topics with the Office of Special 
Counsel.
    Complaints about preferential treatment within the DHS OIG are not 
taken lightly. Allegations such as this can harm a team's morale and 
lead to more serious problems. In order to avoid favoritism or 
preferential treatment, in appearance or in practice, we work to ensure 
fair and equitable human capital practices are used, such as:
  <bullet> Ensuring performance is rated equitably and that leadership 
        identifies potential variables within the construct of an 
        individual performance plan.
  <bullet> The performance management system includes 2 levels of 
        review for appraisals. All new employees are briefed on our 
        performance management programs. In addition, our supervisors, 
        over the past year, have had 2 management training sessions 
        that focus on Performance Management, and another 2 sessions 
        that have focused on Merit System Principles and Prohibited 
        Personnel Practices.
  <bullet> Enhancing our overall communications within the 
        organization, hosting over 60 small-group roundtables between 
        senior leadership and employees. These sessions provided 
        employees the opportunity to hear directly from me and afforded 
        our employees the ability to convey issues they may be facing.
  <bullet> With respect to the recently announced organizational 
        realignment, communication has been a key area of emphasis, and 
        leadership has hosted meetings to discuss changes with impacted 
        teams.
  <bullet> OIG award and incentive programs are based on merit and 
        screened at the initial submission stage by multiple 
        supervisory levels. This is to ensure that offices advance the 
        most deserving employees and that everyone has an equal 
        opportunity for success and recognition.
  <bullet> End-of-year time off or monetary awards for exceptional 
        performance are distributed using a standardized, consistent 
        methodology. Of note, in 2020, DHS OIG took a corporate 
        approach, setting standardized award amounts for the entire 
        General Schedule workforce based on an employee's performance 
        appraisal result. All General Schedule employees, regardless of 
        office or function, were eligible for standardized awards if 
        rated in the 2 highest achievement levels.
    Question 15. In your cover letter to the Wilmer Hale report, you 
wrote that the Council of the Inspectors General on Integrity and 
Efficiency (CIGIE) did not act on your complaints regarding the 3 
Senior Executive Service employees. Did CIGIE ever provide you a reason 
as to why they did not act on your complaints?
    Answer. No, CIGIE did not provide a reason.
    Question 16a. The Wilmer Hale investigative report you provided to 
us mentions that an employee referenced a culture at DHS OIG where no 
clear-cut structured guidance or policies are in place. GAO's draft 
report includes similar concerns.
    What are your plans for addressing these policy needs to ensure 
equitable treatment for all staff and improve the quality of OIG's 
products?
    Question 16b. How do you plan to assess and overcome some of the 
key cultural challenges at the OIG, whether they're related to policy 
or other topics?
    Answer. All of DHS OIG's directives and policies are published on 
our intranet page and made available to all employees. Policies should 
be periodically evaluated to determine whether updates or changes are 
required, and we have developed and are near adopting a comprehensive 
delegation of authorities to guide DHS OIG's policy development and 
review processes. We are in the process of recruiting for a senior 
policy advisor, an SL position in the DHS OIG front office. We are also 
working to update the Special Agent Handbook, the comprehensive set of 
policies applicable to our criminal investigations. Finally, we are 
elevating the policy function within the newly-established Office of 
Innovation.
    Question 17a. Since January, the Office of Audits has been without 
a permanent leader. What is the status of filling that vacancy?
    Question 17b. GAO's draft report identified that the Office of 
Audits conducts work under GAGAS and CIGIE inspection and evaluation 
standards. Do you expect to hire someone with expertise in both sets of 
standards to ensure consistent application of standards in the Office 
of Audits?
    Answer. I selected an experienced senior leader to join DHS OIG as 
the deputy inspector general for audits. He entered on duty at DHS OIG 
on May 23, 2021. Our new deputy IG for audits has prior experience in 
the IG community leading work conducted in accordance with both GAGAS 
(Yellow Book) and CIGIE Inspection and Evaluation (Blue Book) 
standards. He has over 20 years of oversight experience to include 3 
years as the assistant inspector general for audits and inspections at 
the Department of Energy (DOE). He is well-known and respected within 
his field of work and his experience will ensure the Office of Audits 
excels with its work under both GAGAS and the CIGIE inspection and 
evaluation standards.

                                 [all]
</pre></body></html>
